<html>
<title> - A HEARING ON THE PRESIDENT'S PROPOSED EPA BUDGET FOR FY 2009</title>
<body><pre>[Senate Hearing 110-1240]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1240

 
      A HEARING ON THE PRESIDENT'S PROPOSED EPA BUDGET FOR FY 2009

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 27, 2008

                               __________

  Printed for the use of the Committee on Environment and Public Works



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
85-522                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85e2f5eac5e6f0f6f1ede0e9f5abe6eae8ab">[email&#160;protected]</a>  


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 27, 2008
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     2
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     5
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....     6
Klobuchar, Hon. Amy, U.S. Senator from The State of Minnesota....     7
Craig, Hon. Larry, U.S. Senator from the State of Idaho..........     9
Whitehouse, Hon. Sheldon., U.S. Senator from the State of Rhode 
  Island.........................................................    10
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    11
Baucus, Hon. Max, U.S. Senator from the State of Montana.........    16
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    18
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    19
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    19
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland   114

                               WITNESSES

Johnson, Stephen L., Hon. Administrator, U.S. Environmental 
  Protection Agency..............................................    20
    Prepared statement...........................................    21


       HEARING ON THE PRESIDENT'S PROPOSED EPA BUDGET FOR FY 2009

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2008

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10:30 a.m. 
in room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Baucus, Carper, 
Lautenberg, Cardin, Klobuchar, Whitehouse, Voinovich, Isakson, 
Barrasso, Craig, Alexander

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The Committee will come to order.
    My understanding is Mr. Johnson is in the building so he 
will be here shortly. If it is all right with you, I thought we 
could hold our opening statements to 3 minutes. Does anybody 
object to that?
    Senator Voinovich. Could we make it four?
    OK. For you, it is four. Yes. And I understand Senator 
Inhofe has so many obligations at the Armed Services Committee 
with Senator McCain and Senator Warner being away, so we are 
hoping he will come or come in and out.
    Welcome, sir. We are just about to get started. I will 
start. We are here today to review the Administration's 
proposed 2009 budget for the Environmental Protection Agency. 
Since this is the Bush administration's final budget proposal, 
I think we need to ask ourselves a simple question: is the 
Environmental Protection Agency able and willing to protect 
people and communities from serious public health and 
environmental problems? I would say the answer is no. The Bush 
administration's proposed budget for 2009 represents a 26 
percent decline in overall EPA funding since the 
Administration's first budget was enacted, when adjusted for 
inflation.
    Budgets are about priorities. This shows the low priority 
the Bush administration has placed on environmental protection. 
And environmental protection is about protecting our families. 
One in four people lives within four miles of a Superfund site, 
including 10 million children. And yet, this budget represents 
a 16 percent decline in the total Superfund budget since 2002, 
when we adjust for inflation. So in terms of protecting our 
kids, 10 million kids living within 4 miles of a Superfund 
site, this is very disturbing.
    Over the last 7 years, the pace of cleanups has declined by 
50 percent compared to the last 7 years of the prior 
Administration. That is one problem, Superfund. Second, leaking 
underground storage tanks pose a serious threat to groundwater 
quality in communities across the Nation. This budget would cut 
funds to clean up and prevent contamination from these tanks.
    More than 100 million people rely on groundwater for 
drinking water. What could be more basic than making sure that 
they have clean, safe drinking water? This budget does not do 
it. It cuts more than $134.1 million from the Clean Water State 
Revolving Fund.
    The budget also proposes cutting $9.8 million from the 
Diesel Emissions Reduction grant program. According to EPA 
itself, diesel pollution causes 15,000 premature deaths every 
year. This program pays to retrofit diesel engines. Yet it is 
cut. It is the last thing we ought to be doing, if we really 
care about the people we represent.
    Despite the Administration's claims of a commitment to 
global warming, this budget proposes to cut funding for several 
actions to curb global warming, including eliminating funding 
to implement a greenhouse gas registry. So there is lots of 
talk around here, but when it comes to acting, there are cuts. 
This comes on top of the EPA's denial of the California waiver, 
and I will have further questions about that later.
    The Bush administration's budget undermines EPA's ability 
to carry out its mission, it leaves the agency less able to 
protect public health than it was when the Bush administration 
first entered office. The American people deserve better.
    Senator Voinovich.

          OPENING STATEMENT OF HON. GEORGE VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Madam Chairman.
    First of all, I want to thank the Administrator for being 
here and thank you for your service to this Country. You have 
one of the most difficult, if not the most difficult, jobs in 
the Administration trying to balance all these competing 
interests.
    As a former Governor and mayor, I know firsthand the 
enormous challenges you face in putting a budget together. It 
is a process that requires responsible prioritizing and fiscal 
discipline. This leads me to a point that I have made time and 
time again: we must find a way to balance our Nation's 
environmental, energy and economic policies.
    Unfortunately, in many areas, EPA is precluded from 
balancing these various issues, and partly why the economy of 
the State of Ohio is in trouble today. It might make us feel 
good to set lofty environmental goals, but those goals do 
little good when they are not achievable due to practical or 
economic considerations. They are even less good when they 
impose economic hardships to those who can't comply.
    The issue of unfunded mandates is a problem that is 
pervasive throughout the Federal Government, but nowhere more 
than in environmental regulation. At best, standards are set 
with little consideration to as how they will be met. At worst, 
standards are set without regard to the cost of compliance. The 
National Ambient Air Quality Standards and the Clean Water Act 
are prime examples of this disconnect between our policy 
objectives and a case study of unintended consequences.
    Leaving a discussion of those standards aside, I think that 
we ought to look at this budget I share the Chairwoman's 
concern about DERA funding in this budget. The DERA program was 
designed to meet our Nation's air quality standards by reducing 
emissions from the Nation's legacy fleet of 11 million diesel 
engines. It was the most supported environmental program I have 
had anything to do with. It was supported by Republicans and 
Democrats, by business, labor, and environmental groups.
    The fact that it was such a good program is that we got it 
done in 45 days. I have never seen anything pass as quickly as 
the DERA bill. It authorized a billion over 5 years, $200 
million a year. And as the Chairwoman mentioned, DERA has the 
potential to contribute up to a 70,000 ton reduction in PM 
emissions and generate $20 billion in economic and health 
benefits. You have requested $49.2 million for 2009. It will be 
the third year of this program, and I would like you to look at 
this again. I think in terms of leveraging, it is an amazing 
program.
    When you look at your budget, and you have something that 
you can put a dollar in and get two or three dollars from other 
sources, it seems to me that it ought to be higher on the 
priority list. I would like to have--maybe not here--an 
explanation on how the agency looks at programs that leverage. 
When you look at the money that you are prioritizing, how many 
instances do have that money allocated to one issue generates 
money outside and, it is a twofer, threefer, fourfer.
    The other thing I am concerned about is the Great Lakes 
Legacy Act which received $35 million in your budget, decreased 
from $50 million that the Administration proposed 2 years ago. 
This program results in hundreds of thousands of cubic yards of 
contaminated sediments being removed from the Great Lakes. I 
strongly encourage you to work to increase the funding in that 
program.
    Also, Administrator, I would like to remind you of the 
Great Lakes Collaboration. You worked to help to make 
restoration and protection of the Lakes a priority at EPA. I am 
anxious, as co-chairman of the Great Lakes Task Force, with my 
friend, Senator Levin, from Michigan, for you to look at the 
levels of funding for what we are trying to do with the 
collaboration. The funding levels just don't meet the needs at 
all.
    Also, as in previous years, the EPA's budget is wholly 
inadequate in dealing with the Nation's wastewater 
infrastructure needs. In fact, your request represents the 
lowest funding level in the program's history. Did you hear 
that? The lowest level in the program's funding history. 
Continued cuts in the SRF, when EPA estimates the Nation's need 
for wastewater collection and treatment at $193.5 billion, 
makes no sense. This especially concerns me because in the 
State of Ohio, the needs are estimated to be $11.7 billion.
    And I am not going to give you the examples of community 
after community that can't afford to pay the rates. They just 
can't do it. The city of Defiance, with a population of 17,000 
and recently lost 950 auto industry jobs, is required to spend 
$60 million to fix the city's combined sewer overflow problems. 
We have community after community in Ohio that you are forcing 
to do this, and they can't pay it. I had a group of them in 
this morning that have 15 percent, 20 percent rate increases 
each year.
    Does anybody in your agency ever take into consideration 
whether they can do it or not? Does anybody take into 
consideration that some of them can't do it in 15 or 10 years, 
and it is going to be 30 years if you want them to get the job 
done? It seems like sometimes your agency is in a cocoon. It 
doesn't understand what is going on out on the streets.
    We pass stimulus bills to try and help people right now 
because the economy is so darn bad, and at the same time we are 
pulling money out of their back pocket because we have these 
gigantic increases in their sewer and water costs. Somebody 
ought to start putting these things on a piece of paper and 
paying attention to them.
    Madam Chairman, thank you very much for the time that you 
have given me.
    [The prepared statement of Senator Voinovich follows:]

       Statement of Hon. George Voinovich, U.S. Senator from the 
                             State of Ohio

    Mrs. Chairman, thank you for calling this hearing on the 
budget of the Environmental Protection Agency. I would like to 
thank Administrator Johnson for being here.
    As a former Governor and Mayor, I know firsthand the 
enormous challenges that you have to address when crafting a 
budget. This is a process that requires responsible 
prioritizing and fiscal discipline to avoid breaking the bank.
    And this leads me to a point I've made time and time again: 
We must find a way to balance our nation's environmental, 
energy and economic policies. It might make us feel good to set 
lofty environmental goals, but those goals do little good when 
they are unachievable due to practical or economic 
considerations. They are even less good when they impose 
economic hardship to those who can't comply.
    The issue of unfunded mandates is a problem that is 
pervasive throughout government, but nowhere more so than in 
environmental regulation. At best, standards are set with 
little consideration as to how they will be met. At worst, 
standards are set without regard to the costs of compliance. 
The national ambient air quality standards (NAAQS) and the 
Clean Water Act are prime examples of this disconnect between 
our policy objectives and a case study in unintended 
consequences.
    Leaving a discussion of the standards setting process to 
another day, I will simply say that if we set environmental 
standards, we must be ready, as a government, to help 
communities meet those standards.
    In regard to this year's budget proposal, I am concerned 
about funding for the Diesel Emissions Reduction Act (DERA). 
DERA was designed to help meet our nation's air quality 
standards by reducing emissions from the nation's legacy fleet 
of over 11 million diesel engines. DERA authorized $1 billion 
over a 5-year period ($200 million annually). Properly funded, 
and leveraging match requirements for State and local 
governments at a ratio of $2 to $1, EPA estimated that DERA had 
the potential to contribute to a 70,000 ton reduction in PM 
emissions and generate $20 billion in economic and health 
benefits.
    You have requested $49.2 million for fiscal yea-- in what 
will be the third year of a 5-year program. I can't stress 
enough the need for increasing DERA funding as we begin the 
appropriations process. DERA is a well balanced policy to 
reduce air emissions and it would be a shame to let the program 
sunset before its benefits can be fully realized.
    I am also disappointed to see that the administration's 
proposed funding for the Great Lakes Legacy Act is $35 million 
for fiscal year 9. This is a significant decrease from the 
$49.6 million that the administration proposed 2 years ago. 
This program shows results--hundreds of thousands of cubic 
yards of contaminated sediments have been removed from the 
Great Lakes--and I strongly encourage you to work to increase 
funding for this program.
    Administrator, working with the Great Lakes Regional 
Collaboration, you have worked to make the restoration and 
protection of the lakes a priority at EPA. As co-chair of the 
Senate Great Lakes Task Force, I am eager to find ways to 
improve the Collaboration's efforts and ensure the Great Lakes 
programs, like the Legacy Act, receive the funding they need to 
be successful.
    As a member of this Committee, I have sought to bring 
attention to the nation's wastewater infrastructure needs. But 
as with previous years, EPA's budget is woefully inadequate. In 
fact, your request represents the lowest funding level in the 
program's history!
    Continued cuts to the SRF program--when EPA estimates the 
nation's need for wastewater treatment and collection at $193.5 
billion--makes no sense. This especially concerns me because my 
State of Ohio has one of the largest needs in the Nation at 
$11.7 billion.
    Here are a number of examples from Ohio alone: The city of 
Defiance, which has a population of 17,000 and recently lost 
950 auto industry jobs, is required to spend $60 million over 
20 years to fix the city's combined sewer overflow problems. In 
response, the city is being forced to double its rates. The 
city of Fostoria, population of 14,000, is facing a $35 million 
project. This city has lost 10 percent of its jobs over the 
past 2 years, in part due to their increasing water rates. They 
are being forced to increase their rates by $100 per year over 
the next 15 years. EPA is requiring the city of Fremont, 
population of 26,000 people (49 percent are considered low-
income), to spend $63 million. Their rate increases will be 150 
percent.
    EPA is simply not stepping up to the plate to assist the 
thousands of communities across the country facing substantial 
costs to comply with EPA orders. I must tell you that from my 
experience as a former mayor, county commissioner, and 
Governor, I consider this to be an unfunded mandate.
    Administrator, we are asking our communities to do the 
impossible. If the Federal Government is going to impose these 
costly mandates on struggling State and local governments, then 
it should provide funding and flexibility for compliance with 
those mandates.
    Again, I would like to thank you for your attendance today, 
and I look forward to hearing your thoughts on these issues. 
Thank you, Mrs. Chairman.
    Senator Boxer. Well, I loved what you said.
    Senator Lautenberg.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Madam Chairman, I assume that asking 
for equal time would not be----
    Senator Boxer. You can have 4 minutes.
    Senator Lautenberg. Just the same, if I may, Madam 
Chairman, by our distinguished colleague, whose words I liked.
    Senator Boxer. Go ahead.
    Senator Lautenberg. For the past 7 years, President Bush 
has had an opportunity to create a budget that protects the 
environment and for 7 years has failed to do so. He had 
neglected our water infrastructure, which keeps our drinking 
water clean. He has neglected our Superfund sites, and allowed 
toxic chemicals to languish while our children play nearby. He 
has neglected to fight global warming, to help us fight global 
warming, the most serious environmental threat that our planet 
faces.
    This year's budget is no exception. It is a continuation of 
the same under-funding that we have seen in the past. This 
year's budget in many ways sets us back even more than we have 
been. Over the next 20 years, there will be a gap of over $250 
billion between what this Administration is spending and what 
is truly needed for our clean water and drinking water 
infrastructure. Yet, President Bush's budget cuts this funding 
by 20 percent.
    This is brought on by an overt decision within this 
Administration not to have the polluters pay in the first 
place. Now we are suffering the results of that. The President 
is denying States the resources to remove untreated sewage, 
other contaminants from the water we use for drinking, 
swimming, and recreation. The budget also fails to show 
commitment to getting the Superfund program back on track. Ten 
years ago, more than 80 sites were cleaned up each year. But in 
2007, the Bush administration only finished cleaning 24 sites. 
Incredible, that we are so in need of space to build on, to 
play on, to work on, and here we are reducing it by permitting 
it to continue its poisonous representation.
    Well, finally, we need a budget that advances our fight 
against global warming. And the President has come around to 
talking about global warming, but the actions do not match the 
words. This budget provides no funding for a greenhouse gas 
registry, which allows the Federal Government to track sources 
of greenhouse gas emissions. That is putting our head in the 
dirt, for sure. And the Energy Star program, which in 2005 
reduced consumer energy bills by $14 billion, and reduced 
emissions by the equivalent of taking 25 million cars off the 
road, it is going to be cut by more than 8 percent.
    Madam Chairman, on issue after issue, from weakening right 
to no laws to denying States the right to regulate tailpipe 
emissions, the Administration has dropped the ball. And this, 
the last budget that we are going to see from President Bush, 
adds insult to injury. We need an EPA that acts on its mission 
to provide our children with a safer and healthier world. Since 
President Bush and Mr. Johnson, this EPA has failed to leave.
    I look forward to trying to work with this Committee to 
provide some vision.
    Finally, Madam Chairman, I would like to note that as we 
debate our environmental future in this room, across the 
street, in the Supreme Court, an oil company raking in record 
profits is refusing to own up to the damage that was caused in 
the past. The Exxon Valdez oil spill was a disaster and almost 
two decades later, the region is still paying an environmental 
and economic price. Even though courts found Exxon liable for 
punitive damages, the company continues to fight while making 
over $170 billion in profits since the year 2002 alone.
    As the Supreme Court considers Exxon's latest appeal, I 
hope that the company will do what is right and take full 
responsibility for their actions in 1989 and give victims of 
the spill the peace of mind and closure that they deserve. And 
I think that represents their reluctance and the lack of 
enforcement by the Bush administration to appeal to Exxon and 
say, for crying out loud, go ahead and pay the fine that you 
originally had imposed on you instead of fighting in the 
courts, reducing the $5 billion to just over $2 billion and 
then making over $10 billion in each quarter. It is outrageous.
    Thank you very much, Madam Chairman.
    Senator Boxer. Thank you so much, Senator Lautenberg.
    Senator Isakson, welcome.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
             U.S. SENATOR FROM THE STATE OF GEORGIA

    Senator Isakson. Thank you, Madam Chairman.
    Welcome, Administrator Johnson, and I am looking forward to 
your visit to Atlanta on Friday. We are looking forward to 
having you.
    Although I know this is a hearing on your budget, I would 
like to discuss a couple of issues and the economic impact on 
decisions made by EPA. First is on MSMA and the cancellation of 
that registration and the tremendous effect it is having on the 
cotton growers of our State. MSMA is critically important to 
cotton farmers, and there is no economically feasible 
alternative to it. Weeds, particularly pigweed, that are 
invasive to cotton are resistant to other herbicides that are 
available. Without that being re-registered, the MSMA, we face 
some serious deterioration in terms of our cotton crop.
    Deputy Administrator Gulliford visited Georgia last year, 
saw first-hand the impact on our farmers. Unfortunately, EPA 
still took the step of canceling the registration. I would 
appreciate your addressing that, either in your remarks or when 
we have a chance for questions and answers following that.
    Second, talking about water for a second, it is my 
understanding that at the end of June, the Rural Water Contract 
Funding program will be canceled. That is what I have been 
told. That is an invaluable program to rural Georgia. When you 
talk about Georgia, most people think about Atlanta. But our 
State is a very agricultural State, has a large rural area and 
it is absolutely essential to have the technical assistance for 
these small communities to be able to comply with EPA 
regulation. Many of them, quite frankly, don't have either the 
budgets or the sophistication to deal with those regulations 
without the Rural Water Assistance program, and I would 
appreciate your addressing whether or not that contract is 
going to be extended.
    Then last, I wish we could drag a horse in, because I know 
I am beating a dead horse on this, but I do have to bring up 
again the problem we have where we have some rural counties in 
our State who through no fault of their own have fallen in non-
attainment and come under that designation, and with 
restrictions on the very needs they have to improve 
transportation and transit in their communities. We talked 
about Walker and Catoosa County before that just happened to 
fall below Chattanooga and north of Atlanta and have an 
interState going through them. But they're severely impacted by 
the non-attainment designation, yet have no control over the 
pollution that comes to their community because of the wind 
currents that come from the north.
    So I would appreciate, if you have time, your addressing 
that. Thank you for your service to the Country and again, I 
look forward to seeing you in Atlanta on Friday.
    Senator Boxer. Thank you, Senator.
    Senator Klobuchar.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you, Madam Chair, for holding 
these hearings. Welcome, Administrator Johnson. I know this is 
the first of several hearings that this Committee will have on 
the President's budget.
    It is important to have these hearings because the budget 
is not just about dollars and cents. It is a reflection of 
priorities and values. After reviewing the President's budget, 
it is pretty easy to see what the priorities are and what the 
priorities are not. Protecting the environment and maintaining 
our national infrastructure in the way that I believe we need 
to simply doesn't seem to be on the list. As Senator Voinovich 
so eloquently talked about protecting the Great Lakes, it 
doesn't seem to be on the list.
    Administrator Johnson, while the world is gearing up to 
confront the greatest environmental challenge of our time, the 
President's budget actually cuts funding for the Environmental 
Protection Agency by more than $300 million. In Minnesota, we 
like to remember that phrase, put your money where your mouth 
is. I am afraid that this budget doesn't put its money where 
its mouth is, because as we know, in the State of the Union 
address, the President actually announced that ``The United 
States is committed to strengthening our energy security and 
confronting global climate change.'' That is what he said in 
the State of the Union.
    But when the President's released budget is actually 
examined, you see a 38 percent cut in the climate science and 
technology program from what was appropriated in 2008. You see 
an almost 10 percent cut to the climate protection programs 
from what was appropriated for 2008. And you see a 100 percent 
cut to the Department of Energy's Renewable Energy Production 
Incentive program. This is a program that is designed to create 
incentives for renewable energy. I have a difficult time 
understanding how zeroing out such a program demonstrates a 
commitment to strengthening our energy security.
    Mr. Johnson, just last year at a press conference on the 
release of the IPCC report, the International Panel on Climate 
Change, you stated that ``The Bush administration has built a 
solid foundation to address the environmental challenges of the 
21st century.'' Madam Chair, I ask that this press release from 
that press conference be included in the record.
    Senator Boxer. Without objection, so ordered.
    [The referenced material was not received at time for 
print.]
    Senator Klobuchar. Mr. Johnson, the claim that this 
Administration has built a solid foundation just isn't 
supported by this budget. The first step in addressing climate 
change, which is the environmental challenge of the 21st 
century, is to accurately measure greenhouse gas emissions. But 
the President's budget says nothing about the importance of a 
greenhouse gas registry, which you are supposed to be setting 
up this year with congressionally directed funds. How can you 
claim that a solid foundation has been built when your agency, 
the Environmental Protection Agency, does not have accurate 
data on greenhouse gas emissions?
    I have been involved in public policy long enough as a 
prosecutor and when I have been here to know that you can't fix 
something if you can't measure it. That is why Senator Snowe 
and I introduced the National Greenhouse Gas Registry, that is 
why Senator Snowe and I, along with Senators Bingaman, Carper, 
Lieberman and Chairman Boxer and others offered this registry 
as a part of the Energy Bill. That is why Senator Feinstein and 
Chairman Boxer included a very simple provision in Fiscal Year 
2008 omnibus appropriations measure directing you to ``begin 
requiring mandatory reporting of greenhouse gases from 
appropriate sources in all sectors of the U.S. economy. And 
while I know this registry continues to need permanent 
authorization, Mr. Administrator, you and I both know that the 
President has not hesitated to propose money for unauthorized 
initiatives during his time in office.
    I just think we can't be saying one thing in the State of 
the Union and then not having a budget that supports it. Thank 
you, and I look forward to our question period.
    Senator Boxer. Thank you very much, Senator.
    Senator Craig.

            OPENING STATEMENT OF HON. LARRY CRAIG, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Craig. Madam Chairman, thank you very much.
    I do want to associate myself with the remarks of Senator 
Voinovich that he made in relation to communities. Because the 
stark reality hit my State just this last week. A beautiful 
Alpine resort community that is growing quite rapidly has done 
everything possible to meet their standards and the 
requirements of the EPA, Mr. Administrator. They filed 
bankruptcy. Really shook the State of Idaho up. The community 
had no alternative. After tremendous efforts and expenditures 
of funds to meet and comply they felt the only course out was 
to file bankruptcy.
    So when it comes to the necessary funds needed for 
compliance purposes, it really is very difficult to see how you 
can cut budgets. It is tough enough to sustain current levels 
of funding, and that is always frustrating to us. I think that 
is a perfect example of what is happening in my State. As you 
know, Senator Dorgan and I last year don't mind talking about 
and offered legislation to deal with arsenic. Not a very 
popular subject, but a reality of geography and geology 
sometimes. How you deal with the issues within your regulations 
of affordable and feasible.
    Now, if you are a 100,000 community, 200,000 community, it 
is one thing. If you are a 5,000 community, you are faced with 
very burdensome MCL. And this is a community that has been 
drinking that water for 100 years and is as robust and healthy 
as any community I know. They are struggling to comply. They 
can't comply. Being able to work with them and help them is 
critically important. That is the standard. That is what we 
decided as a Country.
    So you decide the standard and then you say to the 
community, you comply. And they can't. They could simply double 
or triple their taxes and probably still could not afford the 
necessary tools. Now, science is moving in the right direction, 
I agree, that will help us get there, both the real science and 
the engineering that will allow compliance in time.
    So the issue of affordability and feasibility and 
critically important, and your flexibility in working with 
these communities, if the effort is good faith. I don't want to 
see more Idaho communities simply filing bankruptcy after the 
fact. That isn't what the Federal Government ought to be 
forcing upon small communities.
    Our National Rural Water Association, the money that is 
available to them for circuit riders and allowing rural 
communities to find assistance in compliance remains critical. 
My State of Idaho, along with California and others, are 
struggling with large confined animal feeding operations. As 
you know, they are called CAFOs. I understand the agency is 
expected to issue their final Clean Water Act CAFO rule some 
time this year. I hope you do it. It is time we move along and 
get there. The livestock industry wants to comply. They need 
certainty. And that is how you get there, is to do it in a 
timely and responsible fashion.
    I would also like to have the agency look at what we are 
doing out in Idaho. Idaho is now the third largest dairy State 
in the Nation, a 10,000 herd dairy, a 5,000 herd dairy is not 
unusual in my State any more. It has become almost the norm. We 
are developing what will be called the Idaho Center for 
Livestock and Environmental Studies. We are going to spend a 
lot of money, we are going to focus on it. We want everything 
to be state-of-the-art. We want it to be clean, we want to 
comply with your regs and your assistance there is extremely 
important.
    As you know, last, Idaho has been host to a very large 
Superfund site in the north end of our State. Old mining 
legacies, I want to tell you that I appreciate the new 
benchmark the agency I think has created. In my mind, 
construction completes, only tells half the story. The real 
standard for excellence is EPA's ability to turn a site into a 
safe and healthy environment. That is what we ought to be doing 
much more aggressively with Superfund sites. But that is a 
matter of cooperation, it is flexibility, it is coordination, 
it is not litigation, litigation. It is actually sitting down 
and working out problems that ultimately produce a cleaner and 
safer environment.
    In that regard, this Administration ought to get some 
marks. I know the heavy hand of Government is sometimes viewed 
as the only way through an environmental crisis for some. At 
least it is politically exciting or it appears to be macho 
politics. But when you sit down and you work it out and you 
cooperate and you keep it out of the courts and you move it 
along, that is when we get the results. We have gotten them and 
I thank you, Madam Chair.
    Senator Boxer. Thank you so much, Senator Craig.
    Senator Whitehouse, this is your turn and we will give you 
4 minutes.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you very much, Madam Chair.
    I am here today to continue the questions that have been 
raised regarding the integrity of the administrative process 
that the Environmental Protection went through in reaching its 
waiver determination. When the Administrator was last before 
us, there were substantial questions then. I found that the 
testimony that we received was highly evasive, and I asked 
questions for the record that have still not been answered.
    I have litigated in administrative agencies a good deal in 
my professional life. I have run administrative agencies and I 
am keenly aware of how important the integrity of the 
administrative process is to the integrity of the ultimate 
decision and also how variations from proper procedure can 
allow political influence and arbitrary and capricious 
decisionmaking into the province of the administrative agency. 
What we have seen since that past hearing has raised far more 
questions than it has answered.
    When you get to the point where Committee staff are 
suggesting that the Department would lose such credibility from 
taking an action that it would lead to irrevocable damage to 
the agency and might require the Administrator to step down, 
that is a pretty strongly held view. And it was interesting 
that when the Administrator was here before, and his discussion 
of whether consolidated recommendations and options analysis 
and exactly what all took place that led to his decision was 
made, nothing along those lines ever came out.
    So I encourage the Chair and I applaud the Chair for her 
efforts to get to the bottom of this. I think at this point, 
the administrative process stinks to high heaven and needs a 
good hard look. I look forward to contributing to that effort.
    And I thank the Chair.
    Senator Boxer. Senator, thank you very much.
    Senator Inhofe, Senator Barrasso has graciously said, 
please proceed.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman. I just want to 
be sure, I know you know this but I want to make sure the rest 
know that I am Ranking on the Armed Services Committee, so I 
had to be down there, and I have to be going back and forth 
between these two committees.
    For the record, since it was brought up by one of the other 
members, I had a couple of interesting articles that I want to 
put into the record on our favorite subject, Madam Chairman. 
One is the National Post article 2 days ago entitled Forget 
Global Warming: Welcome to the New Ice Age, by Lauren Genter of 
the National Post. The other is the NASA analysis as to what is 
happening right now with this, it is really some pretty good 
material that I would encourage my colleagues to read, talking 
about Baghdad sees its first snow and America is now the most 
snow-covered in 50 years. Anyway, all this is as a part of the 
record, if you would.
    Senator Boxer. We will absolutely put those in and we will 
go back now to 3 minutes.
    [The referenced material follows:]


                             national post


Monday, February 25, 2008
    Forget global warming: Welcome to the new Ice Age
    Lorne Gunter, National Post
    Published: Monday, February 25, 2008
    Snow cover over North America and much of Siberia, Mongolia 
and China is greater that at any time since 1966.
    The U.S. National Climate Data Center (NCDC) reported that 
many American cities and towns suffered record cold 
temperatures in January and early February. According to the 
NCDC, the average temperature in January ``was - 0.3 F cooler 
than the 1901-2000 (20th century) average.''
    China is surviving its most brutal winter in a century. 
Temperatures in the normally balmy south were so low for so 
long that some middle-sized cities went days and even weeks 
without electricity because once power lined had toppled it was 
too cold or icy to repair them.
    There have been so many snow and ice storms in Ontario and 
Quebec in the past two months that the real estate market has 
felt the pinch as home buyers have stayed home rather than 
venturing out looking for new houses.
    In just the first two weeks of February, Toronto received 
70 cm of snow, smashing the record of 66.6 cm for the entire 
month set back in the pre-SUV, pre-Kyoto, pre-carbon footprint 
days of 1950.
    And remember the Arctic Sea ice? The ice we were told so 
hysterically last had melted to its ``lowest levels on record? 
Never mind that those records only date back as far as 1972 and 
that there is anthropological and geological evidence of much 
greater melts in the past.
    The ice is back.
    Gillied Langis, a senior forecaster with the Canadian Ice 
Service in Ottawa, says the Arctic winter has been so server 
the ice has not only recovered, it is actually 10 to 20 cm 
thicker in many places than at this time last year.
    OK. so one winter does not a climate make. It would be 
premature to claim an Ice Age is looming just because we have 
had one of our most brutal winters in decades.
    But if environmentalists and environment reporters can run 
around shrieking about the manmade destruction for the natural 
order every time a robin shows up onGeorgian Bay two weeks 
early, then it is at least fair game to use this winter's 
weather stories to wonder whether the alarmist ate being a tad 
premature.
    And it's not just anecdotal evidence that is pilling up 
against the climate-change dogma.
    According to Robert Toggweiler of the Geophysical Fluid 
Dynamics Laboratory at Princeton University and Joellen 
Russell, assistant professor of biologeochemical dynamics at 
the University of Arizona--two prominent climate modellers--the 
computer models that show polar ice-melt cooling the oceans, 
stopping the circulation of warm equatorial water to northern 
latitudes and triggering another Ice Age (a la the movie The 
Day After Tomorrow) are all wrong.
    ``We missed what was right in front of our eyes,'' says 
Prof. Russell. It's not ice melt but rather wind circulation 
that drives ocean currents northward from the tropics. Climate 
models until now have not properly accounted for the wind's 
effects on ocean circulation, so researchers have compensated 
by over-emphasizing the role of manmade warming on polar ice 
melt.
    But when Profs. Toggweiler and Russell rejigged their model 
to include the 40-year cycle of winds away from the equator 
(then back towards it again), the role of ocean currents 
bringing warm southern waters to the north was obvious in the 
currentArtic warming.
    Last month, Oleg Sorokhtin, a fellow of the Russian Academy 
of Natural Sciences, shrugged off manmade climate changes as `` 
drop in the bucket.'' Showing that solar activity has entered 
an inactive phase. Prof. Sorokhtin advised people to ``stock up 
on fur coats.''
    He is not alone. Kenneth Tapping is our own National 
Research Council, who oversees a giant radio telescope focused 
on the sun, is convinced we are in for a long period of 
severely cold weather if sunspot activity does not pick up 
soon.
    The last time the sun was this inactive, Earth suffered the 
Little Ice Age that lasted about five centuries and ended in 
1850. Crops failed through killer frosts and drought. Famine, 
plague and war were widespread. Harbors froze, so did rivers. 
and trade ceased.
    It's way too early to claim the same is about to happen 
again, but then it's way too early for the hysteria of the 
global warmers, too.
    copyright 2007 CanWest Interactive. a division of CanWest 
Media Works, Inc. All rights reserved

[GRAPHIC] [TIFF OMITTED] T5522.031

    Inhofe. Thank you very much.
    We have done it again, I say to my real good friend, 
Administrator Johnson. It seems like every time we go through 
this budget thing, every time, not some times, but every time, 
we go through and they make cuts and they make cuts in the 
programs that they know we are going to restore, the SRF 
programs and things that will be right out in front and be the 
first ones to get restored. So it seems to me this is kind of a 
bureaucratic thing that we go through every year, and that is 
there are some programs that could be targeted out there, but 
they don't do that, they just get the ones, or you get the ones 
that you know will be restored. Maybe you can address that in 
your comments.
    One place we could exercise some budgetary restraint would 
be with the voluntary programs the EPA has created that have 
not been authorized by Congress. Some of these may have very 
laudable goals, but at a time when the agency is proposing to 
cut clean water funding by over $300 million, it may not be the 
first time they administratively created programs.
    So I raise the same concern about the agency's 
international grants. I know that's not a large item but 
nonetheless, we have talked about that.
    As you know, I have been in communication with your office 
about the rules that we are operating under and their impact on 
Oklahoma. Some of us who are conservatives are big spenders in 
the three major areas. One is defending America, the other is 
our infrastructure, which we have done a good in trying to 
address, and the third is unfunded mandates. That is what is 
killing us in Oklahoma. I don't think that we, I know we passed 
a law several years ago that was prospective. But we are going 
back now to things that are having to do, there are just not 
the resources to do that. I think that we should be addressing 
that in a better way in this budget.
    So Madam Chairman, one last thing I want to mention, as you 
all know too well, the solutions to the Tar Creek Superfund 
site have long been my top priority. I know that Senator Craig 
may disagree with this, that Tar Creek is the most devastating 
Superfund site.
    Senator Craig. I would agree with it now. Ours is about 
cleaned up.
    Senator Inhofe. And ours is, too. But anyway, I would say 
this, that Richard Green, Susan Bodine and Sam Coleman, along 
with many others, have done an incredible job in prioritizing 
this. We have language put in the last WRDA bill that allows us 
to go in there without going back each time for some of the 
buy-outs that are necessary.
    When that first happened, I thought it was more of a 
subsidence problem. Now we find out everybody has to be moved, 
there's no way of resolving it. So I want to compliment the EPA 
and in particular those individuals at that level who are doing 
and have done such a great job.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    Welcome, Administrator Johnson. I am pleased to have you 
testify before the Committee today on President Bush's Fiscal 
Year 2009 budget proposal for the Environmental Protection 
Agency.
    The Administration has proposed $7.14 billion for the EPA 
for fiscal year 2009. This is a $330 million, or 4.4 percent, 
cut from the 2008 level. Given the continuing global war on 
terror and the large deficit, I think it is necessary to make 
some tough choices and cut wasteful spending out of the Federal 
budget. I'm getting tired of saying this, but once again the 
budget does not make enough tough choices.
    Over half of the total proposed cut comes from the Clean 
Water SRF, regional water programs, and other congressional 
priorities that the Administration knows Congress will likely 
restore. It seems as if the determining factor for cutting a 
program's funding was if Congress increased funding for that 
program above the Administration's 2008 budget request or 
directed spending. These priorities are summarily dismissed as 
wasteful earmarks and stripped from the budget. Since the 
Administration knows Congress will restore many of the proposed 
cuts, this allows the Administration to increase other 
programs; and at the end of the day, no hard decisions are 
made.
    Despite all the hoopla and criticism from the Democrats, 
after 7 years the Bush administration has failed to find any 
meaningful savings or wasteful spending in the EPA budget. I 
find it hard if not impossible to believe there are no programs 
that should be cut. The only significant cuts the 
Administration ever proposes are the ever-popular and much 
needed SRFs and congressional earmarks. I feel we have 
squandered the opportunity to make the EPA budget more cost 
effective and efficient. I hope you spend the final year of 
this Administration carefully examining EPA programs to 
determine which are truly environmentally beneficial and cost 
effective and which are wasteful.
    For instance, one place to exercise some budgetary 
restraint would be with the voluntary programs EPA has created 
that have not been authorized by Congress. Some of these may 
have very laudable goals, but at a time when the Agency is 
proposing cutting clean water funding by over $300 million, it 
may not be the time for Administratively created programs. I 
raised the same concern about the Agency's international grants 
previously, and while these programs may not add up to much 
money, they are a good starting point.
    As I have indicated, I will once again be supporting 
efforts to restore the large cut you proposed to the critical 
Clean Water SRF program. There is a nationwide crisis and a 
need for more water infrastructure money that is acknowledged 
by this Administration. In the recent Clean Watershed Needs 
Survey, you calculated over $200 billion in need for publicly 
owned treatment works. While I continue to disagree with your 
cuts to the SRF, I am pleased to see that the Administration 
has again proposed lifting the cap on private activity bonds 
for water and wastewater infrastructure projects. I look 
forward to working with the Administration to see if using the 
tax code through private activity bonds would help fill some of 
the infrastructure gap, given the shortage of appropriated 
dollars. While public-private partnerships are not the sole 
solution, we need to do everything we can to encourage them 
since we will never be able to fully fund our infrastructure 
needs.
    Compounding this lack of water infrastructure funding are 
the many costly new regulations imposed on localities. In 
Oklahoma, we continue to have municipalities struggling with 
the arsenic rule and with the Disinfection Byproducts (DBP) 
Stage I rule. Small systems who purchase water from alternative 
systems and have not had to test, treat, or monitor their water 
must now comply with DBPII. In EPA's most recent drinking water 
needs survey, Oklahoma identified $4.8 billion in 
infrastructure needs over the next 20 years. $107 million of 
that need is to meet Federal drinking water standards. This 
does not include costs imposed by Oklahoma communities to meet 
Federal clean water requirements, the new Groundwater rule, the 
Disinfection Byproducts Stage II rule or the Long Term 2 
Enhanced Surface Water Treatment Rule. As you know, I have been 
in communication with your office about these rules and their 
impact on Oklahoma. I am looking forward to continuing to work 
with you to devise ways to assist these communities in reaching 
these drinking water standards.
    One of those ways is through compliance assistance. This 
year, the President's budget requests the highest level of 
funding ever for the enforcement program, including its 
Compliance Assistance Centers to help people comply with the 
SPCC and Disinfection Byproduct rules. I appreciate the 
Administration's work to assist the regulated community to 
comply with often confusing and burdensome rules. This year, 
the EPA has helped 1,228,000 entities with compliance 
assistance. EPA's web-based compliance centers have reached 
millions more. I applaud EPA for continuing build on these kind 
of successes.
    Within the air program, there are three specific areas that 
I would like to address. First, I want to commend you for 
continuing to support the clean diesel grant program funding. I 
was a co-sponsor of clean diesel legislation and fully support 
this program which significantly improves air quality for a 
fraction of the cost of trying to achieve these reductions 
through regulatory mandates. I also want to commend you for 
continuing your agency's support for the Asia-Pacific 
Partnership. EPA's contribution is a very small, but necessary 
funding of this important program. Last, I would remind you 
that I have long supported a strong and improved monitoring 
network for particulate matter. Two years ago, funding was cut 
from this program that has yet to be restored. Monitors that 
measure not just mass, but types of particles, will enable us 
to better tailor our health laws in the future so that we 
reduce the unnecessary burden on the regulated community while 
simultaneously achieving superior health benefits. Without 
these funds, there is a strong incentive for states to cut 
vital speciation monitors, which are comparatively expensive to 
maintain
    As you are well aware, solutions to the Tar Creek Superfund 
Site have long been on my list of top priorities. EPA has long 
ranked Tar Creek as one of the most severe superfund sites in 
the country. Last week, EPA announced a new plan addressing not 
only clean-up, but also acting upon a provision I placed in 
WRDA to provide voluntary relocation assistance to area 
residents. I appreciate the work of key EPA officials Susan 
Bodine, Richard Greene, and Sam Coleman, along with many others 
working on this site. I look forward to continuing to work with 
you to implement this new plan and thank you for all your help 
to date on this important issue.
    My staff has continued to investigate EPA regions and how 
they vary in their implementation and enforcement of 
environmental regulations. We have learned that of the ten EPA 
regions, there is often little uniformity in how the same 
program is managed in different regions. Inconsistency in the 
application of environmental laws creates enforcement 
uncertainty for the courts and for citizens who are trying to 
follow the law. I look forward to continuing to work with you 
on this problem.
    Finally, Mr. Administrator, I am deeply interested in the 
EPA's implementation of the overly aggressive bio-fuels 
increase mandated by the Energy Independence and Security Act 
of 2007 passed in December. These mandates allow no room for 
error in a fuels industry already constrained by tight 
supplies, full capacity, environmental regulation, and volatile 
market conditions. As you know, Congress imposed a nearly 
fivefold expansion of the Renewable Fuels Standard mandate 
despite mounting questions surrounding ethanol's effect on 
livestock feed prices, its economic sustainability, its 
transportation and infrastructure needs, its water usage and 
numerous other issues. On that note, I look forward to working 
with you to determine if these new mandates are even achievable 
and to explore the many potential ramifications.
    Administrator Johnson, I look forward to your testimony.
    Senator Boxer. Thank you, Senator Inhofe.
    And we really all know the stress you are under with the 
two ranking memberships, we are just very happy to have you 
here.
    Senator Baucus.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you, Madam Chairman, and thank you 
for calling this hearing.
    Administrator Johnson, as you will recall, in August of 
last year, you attended a town hall meeting in Libby, Montana. 
And I asked at that meeting, I asked you to work with me and 
let me know if EPA needs more resources, more help with respect 
to all the issues revolving around Libby, Montana. Clearly, 
your budget request is an opportunity to do just that.
    But as I look at all this, I am frankly a bit disappointed, 
to say the least, the people of Libby are depending on you to 
devote the resources necessary to right the terrible wrong 
committed by W.R. Grace. For decades, the W.R. Grace 
vermiculite mill in Libby spewed toxic tremulite asbestos into 
the air. Over 200 people in Libby have died from asbestos-
related disease because of W.R. Grace. There is currently a 
criminal trial in Montana. The question is whether the Libby 
officials violated criminal law. My personal view is they did.
    More people are getting sick every day. The stakes could 
not be higher.
    But as I look at EPA's work plan for Libby this year, and 
frankly, all across EPA's budget, I am left wondering why the 
Administration is not asking for more. From the Superfund 
program to the Clean Water State Revolving Fund, EPA's 2009 
would make cuts, not just cuts in the rates of increase, but 
actual cuts, cuts endangering the health of Montanans and 
compromising our Country's economic competitiveness.
    The Omnibus Appropriations Bill Congress passed in December 
included $1.253 billion for Superfund. That is a $9 million 
increase over the President's 2007 budget request. Yet I was 
recently informed that EPA has decided not to perform emergency 
removals of asbestos from a golf course in Libby this year. 
Fifteen thousand rounds of golf are played on this course every 
year, many of them by the Libby High School golf team.
    In the past, EPA used emergency removal dollars to clean up 
the school and baseball field. This year, EPA will use 
emergency removal dollars to clean up something called Flour 
Creek, which is downtown Libby. I am wondering why emergency 
funds could not be used to clean up the golf course as well. 
Again, there are a lot of kids that use that golf course, a lot 
of kids work at the golf course, they are groundskeepers, they 
mow the fairways and the greens. A lot of people play that golf 
course. Yet EPA has decided not to use emergency funding to 
address the golf course this year, as I know they could.
    People are sick, they are dying in Libby. Yet EPA asked the 
community to choose between the Flour Creek cleanup or the golf 
course. The reality is that as long as one of them remains 
contaminated with asbestos, the children of Libby will continue 
to be put at risk.
    The Administration's 2009 budget request would only 
continue to shortchange the people of Libby and other 
communities across the Country dealing with Superfund sites. 
The Administration's request for Superfund's remedial budget 
represents a $5 billion decrease from last year, not a 
reduction in rate of increase, but an absolutely decrease. the 
overall trend is even more concerning, not just the emergency 
remedial but overall concerning. In 2004 dollars, the EPA spent 
about $1.8 billion on the Superfund in 1993. If you take a look 
at 2004 dollars, about $1.8 billion was spent in 1993. But only 
$1.2 billion were spent in 2004. EPA, in my judgment, has taken 
the Superfund program in the wrong direction.
    Furthermore, turning to clean water and wastewater, why 
isn't the EPA asking for more funding for water and wastewater 
infrastructure? This Country's water and wastewater 
infrastructure is crumbling before our eyes. EPA's own Clean 
Water and Drinking Water Infrastructure Gap Analysis found that 
the Nation would face a backlog of $535 billion in water 
infrastructure projects by 2019 if additional investments are 
not made, or in other words, if spending remains constant, by 
2019, according to EPA's own analysis, it would be a backlog of 
$535 billion in water infrastructure projects.
    A lack of clean water clearly compromises the health of our 
families, our outdoor heritage of hunting and fishing, our 
economic competitiveness. Furthermore, and we have many 
examples of this already in Montana, companies will not invest 
in communities that cannot provide adequate water 
infrastructure for factories and workers.
    The Administration's budget request would cut the Clean 
Water State Revolving Fund by $134 million from the 2008 
enacted levels, again, a cut. Not a cut in the rate of 
increase, but an absolute cut. Clearly, short-sighted.
    The State of Montana currently makes about $14 million in 
loans per year from this program, from the revolving loan fund, 
about $14 million a year. The demand in my State in the next 5 
years is expected to be as high as $25 million per year. Given 
rising demand for Clean Water State Revolving loan funds, why 
is the Administration slashing funding for the program? Not 
just Montana, it's nationwide.
    Administrator Johnson, given the needs our Country is 
facing, why isn't the EPA asking for more funding? Budgets 
might be tight, but what could be more important than clean 
water and protecting our children from Superfund sites? I look 
forward to your answers.
    Senator Boxer. Thank you so much, Senator.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. I thank you very much, Madam Chairman, 
add welcome, Mr. Johnson. We appreciate your being here.
    Mr. Johnson, Wyoming is blessed with many natural 
resources, and has been a major leader in energy production. 
But at the same time, any resource extraction can have 
unintended consequences that impacts our environment. It 
happens in many industries and is certainly a critical issue 
that we are trying to address here today.
    Wyoming has also played a major part in our Nation's 
security. The Department of Defense has used Wyoming because of 
its rural and rugged countryside for national security 
activities like missile silos. These activities have had 
unintended environmental consequences as well. We have a proud 
history, but I will tell you that Washington has an obligation 
to leave Wyoming as environmentally sound as Washington has 
found it before doing these other activities. We all have local 
projects in our States that need further help and further 
assistance from the EPA.
    Senator Inhofe talked about the growing problem of unfunded 
mandates. The cost on Wyoming of implementing new and existing 
rules continues to go up. At the same time, Federal assistance 
that is supposed to help the States when we try to implement 
the regulation goes down. In this year's budget, we see it in 
the State and Tribal Assistance grant program, that has been 
cut 14.4 percent.
    So I hope you will address that, and I look forward to the 
questions and answers. I do want to work with the 
Administration to provide the assistance our State needs to 
address these issues. Thank you for being here, and thank you, 
Madam Chairman.
    Senator Boxer. Thank you, Senator.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Madam Chair.
    Mr. Johnson, welcome. I don't have a formal statement, I 
would just like to use this opportunity to telegraph a couple 
of things that I would be particularly interested in hearing 
from you. One is the level of funding for DERA, the Diesel 
Emission Reduction initiative. A number of us are interested in 
it. I want to say that I am pleased to see the level that the 
Administration has committed to fund that.
    Second, I know you are under a lot of pressure to go one 
way or the other on ozone and the National Ambient Air Quality 
Standards and again, I would encourage you to shoot low rather 
than high.
    Third, we have had, as you well know, a Federal court 
decision on mercury rule. And a number of us have an interest 
in taking a different approach and getting started on that. I 
would be interested in hearing what you have to say.
    I have a couple of other areas to explore with you, but 
those are some of them. We welcome you. Thanks for coming.
    Senator Boxer. Thank you so much, Senator.
    Senator Alexander.


          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thanks, Madam Chairman.
    My late friend Alex Hailey's favorite words were, find the 
good and praise it. So I have one thing I would like to praise, 
as you get started. And that is the new agreement between the 
State of Tennessee and the State of Virginia and the EPA to 
protect the Clinch and the Powell River.
    I was a staff member here when the Clean Water Act was 
written. It has been described as the most important urban 
renewal act ever, because it cleaned our rivers up and restored 
our cities. People began to move back down to the banks of the 
rivers as the cities originally were.
    The same thing can be true of the rivers that run through 
the more rural areas. The Clinch and the Powell, which begin in 
Virginia and run into Tennessee, are two rivers that are not 
yet spoiled. But they need protection, and what you have done, 
your Regions 3 and Region 4 have an unprecedented agreement 
with two Virginia agencies and one Tennessee agency to restore 
and protect those two rivers. The Clinch River is named that 
because as tradition goes, an Irishman, a pioneer was going 
down the river and he fell overboard, and he cried out, clinch 
me, clinch me, and they named the river Clinch. That is a true 
story.
    So I want you to know that the people in east Tennessee, 
most of whom are Republican, like clean water. And they like 
for those two rivers to be clean and appreciate very much the 
special effort that the EPA has made. I would like to 
specifically commend Governor Phil Bredesen of Tennessee, who 
has taken the initiative on this, working with Virginia and 
with the EPA to do it.
    Thank you.
    Senator Boxer. Thank you, Senator. I think that concludes 
our statements. Mr. Johnson, the floor is yours.

   STATEMENT OF HON. STEPHEN L. JOHNSON, ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Johnson. Thank you, Madam Chairman, and members of the 
Committee. I am pleased to be here to discuss the President's 
Fiscal Year 2009 budget request for the Environmental 
Protection Agency.
    This marks the eighth and final budget introduced by the 
President during his tenure. As the Bush administration sprints 
to the finish line, I believe this budget will keep EPA on 
course for a cleaner tomorrow.
    At EPA, we are proud our Nation's air is cleaner, our water 
is purer and our land is healthier than just a generation ago. 
So we appreciate the President's $7.14 billion proposal, which 
will help EPA keep pace with the environmental challenges of 
tomorrow.
    One important challenge is in the arena of clean and 
affordable energy. With both demand and cost on the rise, 
innovators are moving forward to advance the clean power 
solutions. At the same time, industry is searching for new 
domestic energy supplies to help reduce the Nation's dependence 
on foreign oil. In doing so, we estimate the industry will 
explore thousands of new oil and gas wells on tribal and 
Federal lands alone, as well as proposing many energy projects.
    To ensure these projects move forward in an environmentally 
responsible manner, this budget requests $14 million to hire 
additional technical experts and provide grants to our partners 
to increase their capacity to review and assess proposed 
projects.
    In addition, the budget contains sufficient funding to meet 
our commitment to addressing the serious challenge of global 
climate change. In order to advance clean air technologies, the 
President requested $49 million for EPA's diesel retrofit grant 
programs.
    Another challenge is to improve our Nation's aging drinking 
water and wastewater infrastructure. The budget requests $842 
million to fund Drinking Water State Revolving Fund grants, an 
increase of $13.1 million from last year. This will help meet 
the President's commitment to achieve a $1.2 billion revolving 
level by 2018.
    For Clean Water State Revolving Funds, the President 
proposes an investment of $555 million in Fiscal Year 2009. 
This will enable the program to meet its long-term revolving 
target of $3.4 billion by 2015.
    In addition, we once again propose to create water 
enterprise bonds, an innovative financing tool for our State 
and local partners to cost-effectively provide for their 
residents' water needs. As we continue to address our water 
infrastructure, the budget continues to support EPA's 
collaborative work to protect America's great water bodies. It 
provides $35 million for the Great Lakes, $29 million for the 
Chesapeake Bay, and $4.6 million for the Gulf of Mexico.
    As you know, EPA is not only a guardian of our environment, 
it is a guardian of our homeland. I am proud of our response to 
Hurricanes Katrina and Rita and to a number of other natural 
events in recent years. However, we recognize the need to 
expand our capabilities to respond to multiple, simultaneous 
catastrophic events.
    So this budget requests an extra $32 million for a total 
investment of $170 million to train staff volunteers, increase 
decontamination capabilities and fully fund five water 
infrastructure security pilots. This additional funding also 
includes a $5 million increase to support our biodefense 
research.
    In order to keep pace with the environmental challenges of 
tomorrow, we have a responsibility to advance the State of our 
science. In this budget, the President requested $15 million to 
help EPA study nanotechnology as well as an additional $15 
million for computational toxicology. At EPA, we are working 
with our community partners to pass down a healthier, more 
prosperous future. The President's budget provides over $1.2 
billion for the Superfund program, to continue transforming 
contaminated hazardous waste sites back into community assets. 
This is a $10 million increase from Fiscal Year 2008.
    The President also requested a $165.8 million for our 
successful brownfields program. We project that grantees will 
help assess the renovation of 1,000 properties and create 
leverage for more than 5,000 jobs. But while cooperative 
initiatives are important, we must continue to vigorously 
enforce our Nation's environmental laws. This budget proposes 
the highest dollar amount for enforcement in EPA's history: 
$563 million, an increase of $9 million over Fiscal Year 2008.
    As EPA works to fulfill our responsibilities to the 
American people, I am pleased that this budget not only 
continues to deliver environmental results today, it keeps EPA 
on a course to deliver a cleaner, healthier tomorrow. Bottom 
line, this budget represents good government, it helps EPA meet 
our environmental goals while being responsible stewards of 
taxpayer dollars.
    Thank you, and Madam Chairman, I request that my full 
written statement be submitted for the record.
    [The prepared statement of Mr. Johnson follows:]

            Statement of Stephen L. Johnson, Administrator, 
                  U.S. Environmental Protection Agency

    Madam Chairman and Members of the Committee, I appreciate 
the opportunity to discuss our proposed Fiscal Year (FY) 2009 
Budget request for the Environmental Protection Agency (EPA) 
budget.
    The President requests $7.14 billion for fiscal year to 
support EPA's mission to protect human health and the 
environment both directly and through EPA's state, local and 
tribal partners nationwide. Since its founding, EPA has laid a 
strong foundation of environmental progress. Our air, water and 
land are cleaner today than they were just a generation ago. 
This budget continues this progress, supports the environmental 
commitments that the President and I have made and 
institutionalizes EPA's major management and performance 
improvements.
    In particular, the budget meets the major priorities that 
I've set for my final year of service:

     Advancing clean, affordable and safe energy,
     Safeguarding our nation through stronger homeland 
security,
     Encouraging stakeholder collaboration to address energy 
and climate change issues,
     Improving our water infrastructure and programs,
     Continuing Superfund remediation of the most highly 
contaminated hazardous waste sites,
     Encouraging economic development through revitalization 
with our successful Brownfields program,
     Ensuring full compliance with the nation's environmental 
laws,
     Building a stronger EPA for my successor -- including 
strengthening our protection of human health and the 
environment through best available science, and
     Demonstrating fiscal responsibility for all our 
successors.


              ADVANCING CLEAN, AFFORDABLE AND SAFE ENERGY


    We all know that our nation faces multiple challenges to 
assure a future of clean, affordable and safe energy. With both 
demand and costs on the rise, innovators are moving forward to 
propose cleaner power solutions that are good for our 
environment and good for our energy security. Industry is 
searching for many new domestic alternatives to help reduce our 
dependence on foreign energy. We estimate that over the next 
several years industry will propose drilling thousands of new 
oil and gas wells on Federal, state, and Tribal lands, apply to 
renew up to 100 nuclear plant licenses, consider building 
dozens of new liquefied natural gas terminals, and propose many 
other projects. This budget recognizes that industry's 
increased efforts will mean a larger workload in our existing 
air and water permitting programs as well as our enforcement 
programs--especially out West.
    This budget includes an additional $14 million to help 
ensure environmentally sound decisionmaking--with proper 
permitting and review and in full compliance with the law. The 
$14 million will support our State and tribal partners' efforts 
to increase their capacity to review and assess all the 
proposed energy projects and pay for the additional technical 
experts the Agency needs to meet permitting, technical review, 
and NEPA requirements.
    One related clean energy initiative that I'm glad that we 
and the appropriating committees agreed upon is the Diesel 
Emission Reduction Act (DERA) program grants. In fiscal year 9, 
$49 million will fund 250-300 diesel retrofit grant programs 
that target older diesel engines which are not subject to the 
new regulations. A combination of strategies including engine 
retrofits, rebuilds or replacements, switching to cleaner 
fuels, and idling reduction strategies can reduce particulate 
matter emissions by 95 percent, smog forming hydrocarbon and 
nitrogen oxide emissions by up to 90 percent and greenhouse 
gases by up to 20 percent. These strategies will allow us to 
make continued progress in five sectors: freight, construction, 
school buses, agriculture and ports.


                           HOMELAND SECURITY


    Homeland Security continues to be one of EPA's top 
priorities. EPA has responded to five major disasters and 
catastrophic incidents in recent years, including response 
actions to the 9/11 terrorist attacks, the anthrax terrorist 
incidents, the Columbia Shuttle disaster and recovery efforts, 
the Ricin incident on Capitol Hill, and the Gulf Coast 
hurricanes. Our experience from these responses, coupled with 
EPA's externally driven mandates such as Homeland Security 
Presidential Directives and Emergency Support Function mission 
assignments, lead me to propose that EPA heighten its 
preparedness.
    This budget ensures that we can meet these commitments by 
proposing an additional $32 million over last year's enacted 
budget for a total of $170 million to advance the EPA's 
capabilities to respond to multiple incidents, strengthen bio-
defense research, and continue to support the Water Security 
Initiative.
    As a part of this request, we remain committed to funding 
five Water Security Initiative pilots to secure a broad range 
of data so water utilities across the country will have the 
necessary information to install and enhance contamination 
warning systems. With the fiscal year request we will have 
initiated all five pilots and expect to complete them by 2012. 
EPA is also advancing its preparedness to respond to multiple, 
large-scale, catastrophic incidents, and in particular, 
potential chemical, biological and/or radiological agent terror 
attacks.


                             CLIMATE CHANGE


    For fiscal year 9, EPA requests a total of $114.7 million 
to continue to achieve real reductions of carbon dioxide, 
methane, per fluorinated compounds (PFCs) and other greenhouse 
gases, and continue research to better understand climate 
change and its ramifications.
    EPA will continue to achieve real reductions in greenhouse 
gases by promoting energy efficiency through partnerships with 
consumers, businesses and other organizations. We will continue 
to see real results in the home, building, industrial and 
transportation sectors by spurring our partners' investments in 
energy efficient and greenhouse gas saving technologies, 
policies and practices. Based on a historical analysis, we 
estimate that for every dollar spent by EPA on its climate 
change programs, greenhouse gas emissions are reduced by up to 
the equivalent of one metric ton of carbon.
    One cornerstone of our partnerships is the ENERGY STAR 
program, which has helped speed new lighting technologies to 
market, fostered development of more energy efficient 
computers, and increased Americans' understanding of how they 
can help the environment by purchasing cleaner and more 
efficient machines. To give one example, ENERGY STAR qualified 
light bulbs use 75 percent less electricity and last up to 10 
times longer than traditional bulbs. If every American 
household switched just one traditional bulb to a high-
efficiency ENERGY STAR bulb, America would save enough power to 
light more than three million homes save $600 million in energy 
costs and prevent greenhouse gas emission equal to more than 
800,000 cars annually.
    A Washington Post article 2 weeks ago on how pollution can 
be blown to the U.S. from overseas reminded me that our 
international programs are essential to realizing American 
ecological goals. If we don't help China, India and other 
developing countries build energy efficient technologies into 
their infrastructure, their increases in greenhouse gas 
emissions will far out-weigh any reduction that we achieve 
here. That is why it remains essential that we move forward 
with the Asia Pacific Partnership, Methane to Markets and other 
international programs.
    In climate change research, EPA will invest $16.4 million 
to continue to better understand climate change and its 
ramifications. EPA will investigate how climate change affects 
air and water quality to protect the gains in public health 
made by the Agency. We will explore opportunities to anticipate 
the impacts and incorporate climate change considerations into 
regulatory processes. We will use research findings to support 
the development of a proposed rule on the geological 
sequestration of carbon dioxide to ensure that underground 
sources of drinking water are protected. We will continue to 
reach out to all our potential 300 million ``green'' partners 
by making available free, online decision support tools to 
enable resource managers to incorporate climate change 
considerations into their day-to-day operations.


                          COOPERATIVE PROGRAMS


    Our cooperative programs also provide an outstanding 
example of how we can find ``win-win'' solutions that make 
sense both environmentally and economically. They allow us to 
work with businesses and individuals to achieve environmental 
results while improving the bottom line. They allow EPA to 
start addressing environmental challenges as soon as we 
recognize them and give us the opportunity to test innovative 
approaches to meet today's challenging environmental problems. 
To date, our conservative estimate is that over 20,000 
businesses and other groups across America have participated in 
cooperative programs. We are proud of the record of success of 
these programs and want to encourage our talented employees to 
continue to use their creativity in finding innovative ways to 
improve environmental results.


                     WORKING WITH FEDERAL PARTNERS


    Cooperation with Federal partners is also crucial for EPA 
to meet its mission. In the fiscal year budget, I want to 
highlight our efforts to work with Federal partners to better 
understand the environmental impact of the almost $2 trillion 
worth of imported goods coming into the U.S. annually. To meet 
this challenge, the President directed agencies with import/ 
export responsibilities to work together to create an 
International Trade Data System (ITDS) within an expanded 
Automated Commercial Environment (ACE). EPA's $3.1 million 
investment in fiscal year will help build the linkage with ITDS 
to identify, track and confirm vital environmental details 
about imported goods in 6 areas: 1) vehicles and engines, 2) 
ozone depleting substances, 3) fuels, 4) pesticides, 5) toxic 
substances, and 6) hazardous waste.
    This is not a pie-in-the-sky dream. It builds on a 
successful pilot test by our Office of Enforcement, which 
showed that accessing useable records lead to timely action. 
One pilot test identified imported engines in several planned 
shipments that did not meet US specifications and allowed us to 
block their entrance. One bad engine can make a big difference 
in emissions of particulate matter. Another pilot test proved 
that even child's play can be harmful to the environment. 
Detailed records highlight many batches of innocent-looking 
``silly string'' which contained banned chlorofluorocarbons 
(CFCs). These tests make clear that prompt data retrieval 
translates into prompt protection.
    This is also an example of how our long term planning has 
paid off. EPA can efficiently link to ITDS because of the 
Agency developed a Central Data Exchange, a standard set of IT 
systems and protocols for sharing information among multiple 
partners.


                   WATER INFRASTRUCTURE AND PROGRAMS


    This President's budget meets our commitments to finance 
State revolving funds, proposes new financing options, 
continues WaterSense and other collaborative water-efficiency 
projects, strengthens our wetlands and watershed protection, 
and furthers our successful geographic initiatives.
    We propose $842 million for Drinking Water State Revolving 
Fund (DWSRF) grants, an increase of $13 million. This funding 
will help achieve the target of 445 additional infrastructure 
improvement projects to public water systems--and help reach a 
long term target $1.2 Billion revolving level. The DWSRF 
program supports states by providing low-interest loans and 
other assistance to water systems to help provide safe, 
reliable water service on a sustainable basis, protect public 
health and achieve or maintain compliance with the Safe 
Drinking Water Act (SDWA).
    For Clean Water State Revolving Funds (CWSRFs), we propose 
a fiscal year investment of $555 million to help meet the 
program's long term revolving target of $3.4 Billion. This 
program is able to meet EPA's $6.8 billion total capitalization 
goal for FYs 2004-2011 with a reduced budget request due to 
higher than anticipated funding levels in previous years. The 
CWSRF program provides funds to capitalize State revolving loan 
funds that finance infrastructure improvements through low 
interest loans for public wastewater systems and other water 
quality projects.
    The President's fiscal year budget continues to support the 
Water Enterprise Bond Initiative that proposes financing 
wastewater and drinking water infrastructure projects using 
Private Activity Bonds (PABs) that are exempt from unified 
State PAB volume caps. We estimate this initiative will 
increase capital investment in the nation's water 
infrastructure by up to $5 billion per year over time through 
public-private partnerships. These bonds will complement local 
efforts to move toward full-cost pricing for wastewater and 
drinking water services, help localities become self-financing 
and minimize the need for future Federal expenditures.
    These financing proposals work together with our continuing 
efforts to increase efficiency, protect our wetlands and 
watersheds, accurately monitor the condition of our waters and 
wetlands and target vital geographic areas.
    For example, in June 2006 EPA launched the WaterSense 
program to reduce water use across the country by creating an 
easy-to-identify label for water-efficient products. The 
WaterSense label certified that products had been independently 
tested to meet strict efficiency and performance criteria. In 
less than 2 years, WaterSense has become a national symbol for 
water efficiency among utilities, plumbing manufacturers, and 
consumers. More than 125 different models of high-efficiency 
toilets and 10 bathroom faucets have earned the label and more 
than 600 manufacturers, retailers, utilities and professionals 
have joined the program as partners. In fiscal year EPA will 
continue supporting development of new products and working 
with utilities, retailers, distributors, and the media to 
educate consumers on the benefits of switching to water-
efficient products.
    EPA's Wetlands Program supports the Administration's goals 
to achieve ``no net loss'' of wetlands in the Sec. 404 
regulatory program and an overall increase in wetland quantity 
and quality. Wetlands provide numerous ecological and economic 
services: they help to improve water quality; recharge water 
supplies; reduce flood risks; provide fish and wildlife 
habitat; offer sites for research and education; and support 
valuable fishing and shellfish industries. In fiscal year 9, 
EPA will work with its State and Tribal partners to promote up-
to-date wetlands mapping tied with GIS (Geographic Information 
Systems) analysis, strengthen monitoring and assessment 
programs to report on wetlands condition, and improve data to 
better manage wetlands within a watershed context. Two key 
activities will be implementing the 2006 Supreme Court decision 
in the Rapanos case, and working with our Federal agency 
partners to accelerate the completion of the digital Wetlands 
Data Layer within the National Spatial Data Infrastructure 
(NSDI).
    Watershed protection runs through our budget and strategic 
plan as one of the overarching principles for clean and healthy 
communities. Our strategic plan, our daily activities and our 
proposed fiscal year budget all reflect the importance of core 
regulatory and stewardship programs prevent water pollution and 
protect source waters. With our partners we launched a Green 
Infrastructure Strategy on January 17, 2008 to reduce sewer 
overflows and storm-water runoff. We also continue to urge 
Congress to enact targeted, bipartisan clean water legislation 
to encourage ``Good Samaritan'' cleanup of abandoned hard rock 
mines. This simple step will remove legal and bureaucratic 
obstacles, keep environmental safeguards in place, save tax 
payer dollars and help cleanup watersheds.
    We continue to place a high priority on improving the 
states' ability to accurately characterize the condition of 
their waters. In fiscal year 9, we will continue our water 
quality monitoring initiative by providing grant funding 
totaling over $18.5 million to states and tribes that 
participate in collecting statistically valid water monitoring 
data and implement enhancements in their water monitoring 
programs.
    The fiscal year budget continues funding for geographic 
initiatives, including:

     In the Great Lakes, EPA's $35 million investment in the 
Great Lakes Legacy Act will give priority to working with 
states and local communities to achieve improvements in water 
quality and reducing the number of toxic ``Areas of Concern''. 
``Areas of Concern'' include areas with damaged fish and 
wildlife populations, contaminated bottom sediments and past or 
continuing loadings of toxic and bacterial pollutants.
     In the Chesapeake Bay, the $29 million investment will be 
committed to substantially accelerating the restoration of the 
Bay's aquatic habitat and achieving the pollution reduction 
targets for 2010.
     For the Gulf of Mexico, EPA's $4.6 million investment 
will continue to support efforts to reduce nutrient loadings to 
watersheds. We will identify the top 100 nutrient-contributing 
watersheds in the Mississippi River Basin and use a computer 
model determine the location of major sources of nitrogen and 
phosphorus and where to target hypoxia-reduction efforts.


   SUPERFUND REMEDIATION OF HIGHLY CONTAMINATED HAZARDOUS WASTE SITES


    The President's budget requests a $10 million increase for 
a total of $1.264 Billion for the Superfund program to continue 
our progress cleaning up contaminated sites and strengthening 
our emergency preparedness and response capabilities. The vital 
goals of the Superfund program remain assuring the health and 
safety of neighboring citizens during cleanups and protecting 
human health and the environment in the long-term. Within this 
budget request, funding for Superfund clean-up remains at 
essentially the same level as enacted in fiscal year 8.
    EPA takes seriously its responsibility to take actions to 
protect human health by controlling exposure to hazardous 
substances during cleanups. Before or during long-term remedial 
action, the Superfund program often completes removal actions 
to mitigate immediate health threats prior to completing 
investigations and starting long-term cleanup construction. For 
example, to date, EPA has provided more than two million people 
living near contaminated sites with alternative sources of 
drinking water, has completed more than 9,400 removals at 
hazardous waste sites to reduce the immediate threat to human 
health and the environment, and has conducted 351 emergency 
response and removal cleanup actions in fiscal year alone.
    Developed more than a decade ago, EPA's construction 
completion measure continues to show substantial progress in 
the Superfund program. As of the end of fiscal year 7, cleanup 
construction had been completed at 1,030 of the National 
Priorities List (NPL) sites--66 percent of the sites listed on 
the NPL. EPA plans to complete cleanup construction at 30 sites 
in fiscal year 8, and 35 sites in 2009. This will keep EPA on 
track to complete construction at 165 sites during the fiscal 
year to fiscal year time period--EPA's goal in the current 
Strategic Plan.
    To better measure long-term progress, the program added a 
Site-Wide Ready for Anticipated Use measure in 2007. This 
measure tracks the number of NPL sites where the remedy is 
constructed (construction complete) and all of the controls are 
in place to ensure that the land is protected for reasonably 
anticipated uses over the long term. EPA expects to make at 
least 30 sites ready for anticipated use in 2009, building upon 
its 2007 achievement of doubling the original goal of 30 by 
making 64 Superfund sites ready for anticipated use.


                  BROWNFIELDS AND LAND REVITALIZATION


    The President's fiscal year budget request provides $165.8 
million for the Brownfields program, including $93.6 million to 
fund program assessment, cleanup, revolving loan fund, and job 
training grants. This will fund 129 assessment grants, 96 
cleanup grants, 7 revolving loan fund grants, and 12 job 
training grants. Through this work, we project that Brownfields 
grantees will assess 1,000 properties, cleanup 60 properties, 
leverage 5,000 cleanup and redevelopment jobs, and leverage 
$900 million in cleanup and redevelopment funding.
    Experience has taught us that one of the best ways to clean 
up contaminated sites and to address blighted properties in 
communities is to expressly consider the future uses of this 
land. The country has accepted the economic and ecological 
importance of recycling various consumer products--and our 
understanding of sound resource management must now also 
embrace the recycling of contaminated properties. In addition, 
by incorporating ``green'' and sustainable approaches into 
Brownfields redevelopment, we can further increase the 
environmental benefits from land revitalization. We remain 
committed to the goal of restoring our nation's contaminated 
land resources and enabling America's communities to safely 
return these properties to beneficial economic, ecological, and 
societal uses.


                              ENFORCEMENT


    Experience has also shown that we cannot always rely on 
collaboration to attain all our goals. This budget doesn't 
neglect that lesson. Once again I request the largest 
enforcement budget in history, $563 million--an increase of $9 
million--to maintain our vigorous and successful enforcement 
program.
    These dollars will prove to be a wise investment. Last 
year, EPA's enforcement programs succeeded in:

     Having defendants agree to $10.6 billion in investments 
to reduce pollution;
     Achieving private party reimbursements of $252 million 
for Superfund; and,
     Reducing water pollution by 178 million pounds and air 
pollution by 427 million pounds.

    This all-time record budget request includes a $2.4 million 
increase to a total budget of $52.2 million for criminal 
enforcement. These dollars are vital to help us increase the 
number of criminal investigators.


                      STRONGER EPA--SOUND SCIENCE


    As a 27-year Agency veteran, one of my most solemn duties 
is to leave behind an EPA that is stronger than when I came in. 
As both a scientist and a long time manager--I am convinced 
that the only way that a technical, regulatory agency can meet 
its mission is by doing a lot of hard thinking to ensure that 
we keep our technical, legal and scientific base strong--and 
that we hone our management goals and measures to guide our 
efforts. This budget builds on the progress we've made by 
strengthening our workforce, sharpening our management and 
performance measurement and increasing our scientific 
knowledge.
    First, as a scientist, I want to continue to provide strong 
support for research addressing our nation's and our world's 
critical and increasingly complex environmental issues. In 
fiscal year 9, I propose that EPA invest extra resources to 
understand two critical, growing areas: nanotechnology and 
computational toxicology.
    For nanotechnology, I ask for an additional $4.5 million, 
for a total budget of $14.9 million to strengthen understanding 
of health and ecological implications arising from new routes 
of exposure and/or toxicities associated with exposure to these 
novel materials. We must identify and develop risk assessment 
methodologies for use by risk assessors, and evaluate the 
adequacy of current exposure assessment approaches. We will 
coordinate this research closely with the President's National 
Nanotechnology Initiative (NNI), which emphasizes the need for 
the government to understand which processes govern the 
environmental fate of nano-materials and what data are 
available or are needed for accurate nano-material risk 
assessment. This includes determining the release potential of 
nano-materials in the environment, researching the State of 
science for sampling and measuring nano-materials in 
environmental media. We must also study effects on human and 
ecological receptors and determine which technologies and 
practices minimize risk.
    I also remain strongly committed to improving our 
computational toxicology work and ask for a $2.7 million 
increase--for a total budget of $14.9 million for this vital 
area. In fiscal year 9, we want to improve EPA's ability to 
more efficiently understand chemicals' toxicity through 
advanced modeling. One aspect of this work that is particularly 
important is that it can reduce the need to use animals for 
toxicity testing.
    To help further these initiatives and ensure EPA's ability 
to attract and retain the highest caliber scientists, the 
budget proposes expanded special authority that will allow EPA 
to hire up to 40 scientists quickly and competitively.


                STRONGER EPA--PERFORMANCE AND MANAGEMENT


    As a manager, I want to make sure that we focus on 
something we can all take pride in--delivering results. And I'm 
proud to tell you about what we've accomplished to date in the 
planning and management fields. EPA:

     Scored ``green'' in the President's Management Agenda on 
all initiatives in the first quarter of fiscal year--one of 
only a few agencies to reach that goal, and
     Improved outcome measures to more directly link the 
results of our work and resources to environmental, on-the-
ground, results.

    We've addressed specific challenges as well. For the first 
time in 10 years we've succeeded in removing grants management 
as a ``management challenge'' or ``material weakness''. We've 
fixed problems identified by the Government Accountability 
Office (GAO) and the Office of Inspector General (OIG) and 
built a system of internal controls fully integrated into the 
grants management process that includes:
     Improved mandatory training,
     Heightened grants performance standards,
     Quarterly management close-out reviews,
     New post-award monitoring orders, and
     EPA's new grants management system.

    Finally, as I conclude my tenure at EPA, I want to fulfill 
my responsibility to cultivate the next generation of EPA 
leaders. This budget includes funding for a Leadership and 
Professional Development rotation program to ensure that our 
talented GS-13, 14 and 15 employees can expand knowledge and 
expertise, develop leadership skills and enhance professional 
growth through short term rotational assignments. For more 
senior leadership, we propose to continue our SES mobility 
program to make sure that we populate the highest levels of the 
agency with proven managers.


                               CONCLUSION


    Madam Chairman, when I look at the candidates who are 
getting the opportunity to broaden their skills in these 
programs, I am heartened that I'll be leaving the agency in 
good hands. I look forward to working with you to enact this 
budget.
    I am confident that this budget gives them an excellent 
basis on which to build. I hope that together we can see prompt 
action on these budget proposals so that we can implement your 
funding decisions.
    Thank you. I will be happy to respond to any questions you 
may have.
    Senator Boxer. Thank you very much.
    We are going to give 7 minutes to each Senator. Before my 
clock starts, I want to put into the record, since I always try 
to go toe to toe with my friend here, my dear friend, I have 
two particular clips, we are going to have some more. This one 
says, Fisheries, Climate Change Threatens Vital Fishing 
Grounds. That is from a new U.N. report. And Warming Tipping 
Points Could Thaw Greenland Ice Sheet and Kill the Amazon Rain 
Forest, Scientists Say. So that is just a sample. If Senator 
Inhofe puts in four articles, we will put in four articles and 
the debate will continue in a very dignified manner.
    Let me say that I want to place into the record a letter 
that I sent, with Senator Inhofe, to the Budget Committee. Mr. 
Johnson, I just want you to know it reflects the comments that 
we made. All of the items that I detailed in my opening 
statement, the State Revolving Fund, the Superfund, which you 
were bragging about, which is under-funded, the brownfields, 
preventing and cleaning up leaking underground storage tanks, 
and other EPA programs. The only one we didn't agree on was the 
greenhouse gas one, surprise, surprise. So we didn't have that 
in there.
    But outside of that, we have come together strongly on 
this. I am going to place that into the record at this time. We 
really do agree.
    [The referenced material was not received in time of 
print.]
    Senator Boxer. So Administrator Johnson, I am going to 
start off with budget questions, and then I am going to turn to 
the waiver. If my time runs out, we can all do second rounds, 
if we wish.
    I want to enter into the record several EPA documents that 
we received after the Committee requested records concerning 
the Superfund program. These documents show that EPA has known 
for years about a shortfall in cleanup funding at the Nation's 
most heavily contaminated toxic waste sites. I think we have 
some charts here, which you won't be able to read, but a chart 
from 2002 says that there was an estimated shortfall. This is 
your Administration saying there was an estimated shortfall for 
fiscal years 2003 to 2005 of $1.1 billion in 2005. A document 
from 2003 states that 18 New Start projects at 16 sites will 
not be funded in Fiscal Year 2003. A chart from 2005 shows a 
projected cleanup backlog extending until 2017.
    [The referenced material follows:]

    [GRAPHIC] [TIFF OMITTED] T5522.032
    
    [GRAPHIC] [TIFF OMITTED] T5522.033
    
    [GRAPHIC] [TIFF OMITTED] T5522.034
    
    [GRAPHIC] [TIFF OMITTED] T5522.035
    
    [GRAPHIC] [TIFF OMITTED] T5522.036
    
    [GRAPHIC] [TIFF OMITTED] T5522.037
    
    [GRAPHIC] [TIFF OMITTED] T5522.038
    
    [GRAPHIC] [TIFF OMITTED] T5522.039
    
    [GRAPHIC] [TIFF OMITTED] T5522.040
    
    [GRAPHIC] [TIFF OMITTED] T5522.041
    
    [GRAPHIC] [TIFF OMITTED] T5522.042
    
    [GRAPHIC] [TIFF OMITTED] T5522.043
    
    [GRAPHIC] [TIFF OMITTED] T5522.044
    
    [GRAPHIC] [TIFF OMITTED] T5522.045
    
    [GRAPHIC] [TIFF OMITTED] T5522.046
    
    [GRAPHIC] [TIFF OMITTED] T5522.047
    
    [GRAPHIC] [TIFF OMITTED] T5522.048
    
    [GRAPHIC] [TIFF OMITTED] T5522.049
    
    [GRAPHIC] [TIFF OMITTED] T5522.050
    
    [GRAPHIC] [TIFF OMITTED] T5522.051
    
    [GRAPHIC] [TIFF OMITTED] T5522.052
    
    [GRAPHIC] [TIFF OMITTED] T5522.053
    
    [GRAPHIC] [TIFF OMITTED] T5522.054
    
    [GRAPHIC] [TIFF OMITTED] T5522.055
    
    [GRAPHIC] [TIFF OMITTED] T5522.056
    
    [GRAPHIC] [TIFF OMITTED] T5522.057
    
    [GRAPHIC] [TIFF OMITTED] T5522.058
    
    [GRAPHIC] [TIFF OMITTED] T5522.059
    
    [GRAPHIC] [TIFF OMITTED] T5522.060
    
    [GRAPHIC] [TIFF OMITTED] T5522.061
    
    [GRAPHIC] [TIFF OMITTED] T5522.062
    
    [GRAPHIC] [TIFF OMITTED] T5522.063
    
    [GRAPHIC] [TIFF OMITTED] T5522.064
    
    [GRAPHIC] [TIFF OMITTED] T5522.065
    
    [GRAPHIC] [TIFF OMITTED] T5522.066
    
    [GRAPHIC] [TIFF OMITTED] T5522.067
    
    [GRAPHIC] [TIFF OMITTED] T5522.068
    
    [GRAPHIC] [TIFF OMITTED] T5522.069
    
    [GRAPHIC] [TIFF OMITTED] T5522.060
    
    [GRAPHIC] [TIFF OMITTED] T5522.071
    
    [GRAPHIC] [TIFF OMITTED] T5522.072
    
    [GRAPHIC] [TIFF OMITTED] T5522.073
    
    [GRAPHIC] [TIFF OMITTED] T5522.074
    
    [GRAPHIC] [TIFF OMITTED] T5522.075
    
    [GRAPHIC] [TIFF OMITTED] T5522.076
    
    Boxer. Now, you come here and you say you are so pleased 
with the Superfund program. Does your budget take care of all 
this backlog?
    Mr. Johnson. Madam Chairman, indeed, the budget is $10.2 
million over enacted. So we are very pleased----
    Senator Boxer. How much of that is for homeland security, 
sir?
    Mr. Johnson. Again, our ability to, or our need to train 
staff and make sure that they are prepared is obviously an 
important aspect for our Nation.
    Senator Boxer. Well, sir, if I just may, I am asking you a 
question. My understanding is that that increase, a lot of that 
has to do with homeland security. Can your staff tell us what 
of that is for homeland security versus cleaning up these 
sites? We understand that there is a $5 million cut from 
cleaning up these sites. Are we correct on that?
    Mr. Johnson. I will have to ask my staff for the specifics 
on that. Susan Bodine.
    Ms. Bodine. Thank you, Senator Boxer.
    The cleanup funding for our cleanup accounts in the 
Superfund program between the 2008 enacted and the 2009 
President's budget request is level. The difference is 
$711,000, less than a million dollars in difference. That is 
for our----
    Senator Boxer. So you are cutting how much?
    Ms. Bodine. Seven hundred 11 thousand is the difference 
between the 2008 enacted cleanup funding and the----
    Senator Boxer. So I am asking you, you are cutting the 
budget for the cleanup, we show $5 million, but let's say it is 
somewhere in between the two.
    Ms. Bodine. May I explain that?
    Senator Boxer. Let's say it is in between the two. I am 
asking you, is that budget enough to cure the shortfall that 
your own agency cited? Yes or no?
    Ms. Bodine. We have had unfunded New Starts for a number of 
years, in 2004, 2005, 2006. In 2007, we were able, we 
eliminated the backlog of unfunded New Starts. And we were able 
to start all of the sites that were ready----
    Senator Boxer. Is the cleanup fund which you now have 
stated is cut, and we have it, we will put it in the record, it 
is $4.5 million cut from the enacted budget----
    Ms. Bodine. May I explain----
    Senator Boxer. So we're talking about a cut from the 
enacted budget. It is a $4.958 million cut. So this is the 
Superfund Remedial program. Do you agree with that?
    Ms. Bodine. The remedial funding is the, it is less than 
the remedial funding in the enacted.
    Senator Boxer. That is what I am trying to get at.
    Ms. Bodine. Because Congress cut the removal funding.
    Senator Boxer. No, no, no.
    Ms. Bodine. So when you look at all of our cleanup programs 
together, we have level funding for cleanup.
    Senator Boxer. I am talking about cleaning up these sites.
    Ms. Bodine. We cleanup these sites with removal funding, 
with----
    Senator Boxer. Let me just say, because this is my first 
question and we have gone on a long time. The fact is, there is 
a $4.958 million cut in Superfund remedial. Those are the funds 
that are used to clean up these sites. So clearly, this budget, 
with all the hoopla about how great it is on Superfund, it is a 
problem. That is why Senator Inhofe and I have agreed and sent 
this letter. You are not going to clean up any backlog. Those 
millions of children who live within a few miles of the sites 
are going to continue to be exposed to great danger. Let's call 
it what it is.
    Now, Administrator Johnson, the budget proposes to cut $134 
million in funding from the Clean Water State Revolving Loan 
Fund program. This program prevents pollution from reducing 
water quality in our Nation's lakes. Do you know what EPA 
reported in terms of how many of our Nation's lakes and rivers 
are too polluted to allow such things as swimming or to support 
wildlife? Can you give us that percentage, how many, the 
percent of our Nation's lakes and rivers that are too polluted 
to swim in or support wildlife? Do you know the percentage?
    Mr. Johnson. I don't know that percentage off the top of my 
head, Madam Chairman. But I do know----
    Senator Boxer. Well, EPA numbers----
    Mr. Johnson [continuing].--the needs survey that we did for 
both clean water as well as drinking water. I have those 
numbers.
    Senator Boxer. Well, EPA, your own numbers show that 45 
percent of our Nation's lakes and rivers are too polluted to 
allow such things as swimming. And then we see a cut in this 
program. This is not right for the American people, and that is 
why we are going to restore this in a bipartisan way.
    Now, I have to say, in terms of greenhouse gas registry, I 
am going to leave that to Senator Klobuchar, because that is 
her initiative. But it is an outrage to hear all the talk about 
how you are supporting cutting greenhouse gases and then you 
just go ahead and cut the budget, $7 million to develop the 
clean automotive technology program, $3 million in cuts to 
research a future greenhouse gas rulemaking, $1 million to 
research carbon sequestration. Ridiculous cuts, when you are 
saying you really care about global warming.
    Administrator Johnson, the budget proposes to cut more than 
$4 million from the Energy Star program. In 2005, Jeff 
Holmstead, then EPA Assistant Administrator for Air, was 
speaking about the Energy Star program when he said ``Improved 
energy efficiency provides one of the greatest opportunities 
for cost-effective reduction in pollution and greenhouse gases 
and improvement in energy security.'' Do you agree with Mr. 
Holmstead's statement?
    Mr. Johnson. I am a full supporter of the Energy Star 
program. I think it is an outstanding partnership program that 
is delivering results.
    Senator Boxer. So why would you cut it by $4 million?
    Mr. Johnson. Again, our budget meets our environmental 
goals while being responsible stewards of our taxpayer dollars.
    Senator Boxer. Well, that surely is not something that any 
of us up here that I know of agree with, listening to all my 
colleagues' opening statements.
    In my last question here, and then I am going to get to the 
waiver in my second round, the budget proposes to cut more than 
a million dollars in research that supports air quality 
standard setting. According to the American Lung Association, 
``Over 93 million Americans live in areas where they are 
exposed to unhealthy levels of particulate pollution.'' Do you 
believe the EPA should reduce its commitment to help protect 
the health of more than 90 million people in this Country?
    Mr. Johnson. We are continuing to invest in important new 
research, particularly computational toxicology, for example, 
which is the additional dollars. Focus on that will help 
children, in particular. So again, we think our air research 
program is an important program. We are continuing to invest in 
air research. But we also have two areas that we think are 
higher priority, one of them is computational toxicology, the 
other one is nanotechnology.
    Senator Boxer. Well, all I can say is, you say one thing 
and then you do another in your budget. It is not acceptable. 
The emperor has no clothes in this budget, no matter what words 
you put around it.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Based on information that came out yesterday from the 
majority press briefing on the California waiver, it is my 
understanding that the EPA staff resources were used to write 
talking points for former Administrator Reilly to lobby you on 
the California waiver issue. If this is true, at a minimum it 
is highly improper use of the agency funds and possibly a 
violation of the Hatch Act. I would ask you if you are aware of 
this. Maybe you saw the article in this morning's Wall Street 
Journal. If so, is it proper and what do you intend to do?
    Mr. Johnson. Senator Inhofe, I became aware of the piece of 
paper as part of, I was not aware of it when it was developed. 
I became aware of the paper as part of our response to Members 
of Congress in being open and transparent in the California 
waiver decision. Again, as Administrator, in my career, I have 
always encouraged our staff to provide me candid and open 
advice. I still believe that.
    So I became aware of it as part of that process.
    Senator Inhofe. When would that have been?
    Mr. Johnson. I am not sure when, but it was during the 
document production phase of responding to Senator Boxer and 
Chairman Waxman.
    Senator Inhofe. Let us know, refer back to us, if you 
would, on what you do find on this and what your intentions 
are.
    Mr. Johnson. OK.
    Senator Inhofe. As you are all aware, the oil and natural 
gas industry is extremely significant in Oklahoma. We are the 
second largest producer, in the State of Oklahoma, of natural 
gas. We have 120,000 wells in operation at the present time.
    Recently, the EPA asked for comments on the ICR, that is 
the information collection request regarding the activities of 
coal-bed methane operators to reevaluate Clean Water Act 
guidelines. A survey published by the Federal Register 
requested detailed information regarding company ownership, 
cost, earnings, liabilities, expenses. Now, I have this report 
here, I can't even tell you how many pages, but the requests 
for information, it says here, if no business confidentiality 
claim accompanies the information when it is received by the 
EPA, the EPA may make the information available to the public 
without further notice.
    Now, what would keep a person from going ahead and making 
that confidential claim with each request that comes in? Is 
that something that could be a way out of this burdensome 
thing? Does each one have to be verified? Can it be just a 
blanket request?
    Mr. Johnson. Senator, I don't know, I would have to get 
back to you for the record. Let me just turn to Ben Grumbles. 
Do you know the answer?
    While Ben is coming to the table, again, as you point out, 
in part of the budget, we recognize that there are going to be 
a number of explorations and opportunities for additional 
energy sources. That is precisely why the President is asking 
for $14 million more to help us to staff up to make sure that 
as this exploration occurs, that it will be in a responsible 
way.
    Senator Inhofe. We will let Ben answer that question.
    Mr. Grumbles. Senator, we take the CBI provision seriously, 
as a way to ensure confidentiality. As we make these 
information collection requests for this particular, this 
detailed study, we will be working with the General Counsel's 
office to look at it very carefully.
    I would say that, rather than going forward directly with a 
new national effluent guideline on coal-bed methane, we felt it 
was important to get as much information as we could first on 
the practices and the range of procedures and safeguards for 
clean water and ensure responsible coal-bed methane mining 
operations. We think that this, in addition to the safeguards 
for confidentiality, are going to give us the information so we 
can make an informed decision on whether or not a Federal clean 
water effluent guideline might be needed in the future.
    Senator Inhofe. I would just ask that the EPA commit to 
work with the regulating community to narrow this request. This 
is just really pretty obscene here in some of the things that 
they are asking, confidential information.
    In my opening statement, I talked about that we have the 
municipalities in my State of Oklahoma struggling with the 
arsenic rule, with the disinfection byproducts stage one rule. 
Now smaller systems who are purchasing water from alternative 
systems and have not had to test, treat or monitor their water 
will now have to comply. What are you doing to assist these 
communities in being able to comply with all this stuff?
    Mr. Johnson. That is an important question, because we too 
are concerned about helping the small communities meet new 
standards, for example, in arsenic. In the case of arsenic, I 
have been working with the States and communities to adopt new 
practices and new technologies to help. In fact, our current 
estimate as of August last year is that 2,400 of the estimated 
4,100 affected systems are now meeting the new standard. We 
have an ongoing research effort which is showing results. We 
have demonstrated projects in 37 sites that new treatment 
systems have been----
    Senator Inhofe. What might be interesting for us to have, I 
don't think I am the only one at this table who has this 
problem. Maybe it is more severe in Oklahoma. But I would kind 
of like to see, since you have all that stuff, Mr. 
Administrator, if you could share with us, I would like to know 
if my State of Oklahoma is in a lot worse shape than some of 
the other States. I seem to be the only one voicing concerns 
all the time about this.
    Mr. Johnson. I would be pleased to provide that information 
for the record and also the next steps of what we are doing on 
the disinfect byproducts as well.
    [The referenced material was not received at time of 
print.]
    Senator Inhofe. That would be good. I would appreciate 
that.
    Now on the renewable fuel standards, the mandate, the 
fivefold expansion, the mandate despite mounting questions 
surrounding ethanol's effect on livestock, feed prices, that is 
what I hear most about in Oklahoma. Its economic 
sustainability, its transportation infrastructure needs, 
pollution and water usage are just--and many other issues. 
Aside from implementation of this new standard, how does the 
EPA consider these negative consumer impacts and guard against 
them? Are you really looking at these and trying to do 
something to address these problems?
    Mr. Johnson. Yes. Obviously we want to, and in fact have 
already begun writing the regulation that would implement the 
new Energy Independence and Security Act provision for the 
renewable fuel standard. We have taken the first step. In fact, 
on February 14th we issued the requirement for 2008 renewable 
fuel standard. And second, we are beginning to work with all 
our stakeholders, the ag community, Department of Energy and 
others to devise a regulation that would meet the 36 billion 
gallon requirement that is in the Energy Independence and 
Security Act.
    Recognizing that clearly, we all are concerned about the 
potential impact on food, food prices, that is why certainly 
new technologies like cellulosic ethanol and some of the new 
biofuel processes are going to be very important.
    Mr. Johnson. I know they will be. I am thinking about the 
here and now. My time is expired, but it is gratifying that if 
you are looking at the effect this is having on the livestock 
feed, which translates into costs for all consumers all over 
America, then, I just want to be sure that is on your screen.
    Mr. Johnson. We are certainly aware of the issue, sir. As 
we put together the regulation, we know that that is going to 
be an important consideration.
    Senator Inhofe. Good, thank you.
    Senator Boxer. Senator Lautenberg.
    Senator Lautenberg. Mr. Johnson, are you satisfied with the 
budget as presented, that you can accomplish the goals that are 
set out for EPA?
    Mr. Johnson. Yes, sir, I do support----
    Senator Lautenberg. You are?
    Mr. Johnson. I do support the President's budget.
    Senator Lautenberg. Do you protest it at all? Do you 
object? Or do you just say, OK, OMB and fine, we will just cut 
wherever you want?
    Mr. Johnson. My responsibility as Administrator is to 
present and work and develop a budget and work within the 
Administration.
    Senator Lautenberg. So was this your budget development?
    Mr. Johnson. This is my budget and I defend it.
    Senator Lautenberg. Well, you have a way with words, Mr. 
Johnson, and we have great respect for you as a person, 
character, knowledge, et cetera. I don't know that your choice 
of words, you say in your statement, for Clean Water Revolving 
funds, we propose an investment in 2009 of $555 million to help 
meet the program's long-term target of $3.4 billion. Is that 
the same as last year?
    Mr. Johnson. Last year's enacted budget is about $134 
million less.
    Senator Lautenberg. No, the budget last year.
    Mr. Johnson. Last year was more.
    Senator Lautenberg. Yes. It was substantially more, it was 
$689 million last year. And you are proposing $555 million this 
year. So you call it an investment. You don't say there is a 
decline, that there is less. Was money wasted last year? Is 
that what happened?
    Mr. Johnson. No, sir. Again, there are I think several 
things to keep in mind. One is that as EPA over the years, 
certainly in my 27 years through multiple Administrations, we 
do not carry over congressionally directed programs, the so-
called earmarks, as we present budgets. A second is, in the 
case of the Clean Water as well as Drinking Water State 
Revolving Loan funds, the needs are great. There is no question 
about that.
    Senator Lautenberg. Would you consider them earmarks?
    Mr. Johnson. And that again----
    Senator Lautenberg. Would you consider that an earmark?
    Mr. Johnson. Again, the needs are great. We have 
established, and certainly the President----
    Senator Lautenberg. But it doesn't bother your conscience 
to ignore a decline there? Is it a good program?
    Mr. Johnson. What I was getting to is what----
    Senator Lautenberg. Can you get to it quickly, please?
    Mr. Johnson [continuing].--set a goal and a goal for the 
Clean Water State Revolving Loan fund is to have it revolving 
at $3.4 billion a year. This budget helps us meet that goal. 
And that is the----
    Senator Lautenberg. So we were in excess funding last year, 
if that is--you are satisfied with reaching the objective now?
    Mr. Johnson. Again, higher than anticipated levels and 
enacted prior year budgets, yes, sir.
    Senator Lautenberg. So it doesn't bother you at all?
    Mr. Johnson. Again, we have a lot of priorities----
    Senator Lautenberg. Yes or no, please.
    Mr. Johnson. No, it doesn't bother me, because we are 
achieving what our long-term objectives are.
    Senator Lautenberg. Mr. Johnson, if there was a fire in a 
building and an employee screamed out for help, would that be 
considered lobbying under the Hatch Act in a Federal building?
    Mr. Johnson. I am not a Hatch Act expert, sir.
    Senator Lautenberg. I just wanted to know whether that is 
considered lobbying.
    How do you feel about global warming, climate change? Are 
the areas that are now snow-covered at record levels, does that 
challenge the fact that we are concerned about global warming 
and should do more to reduce it?
    Mr. Johnson. As I have stated previously, and I continue to 
believe----
    Senator Lautenberg. I'd like you to State it again.
    Mr. Johnson. Global climate change is a serious problem.
    Senator Lautenberg. OK. So the fact that there is snow in 
some areas doesn't really tell you that there is no concern 
about, or there is less concern about global warming?
    Mr. Johnson. Again, there is a variety of, and many would 
describe it as global climate change, which means in some parts 
of the world there may be lower temperatures, in other parts of 
the world, there may be higher temperatures.
    Senator Lautenberg. Right.
    Mr. Johnson. Again, I believe global climate change is a 
serious problem.
    Senator Lautenberg. OK, fine, thank you. So that change is 
what we are looking at. So some areas got lots of snow that 
hadn't had that kind of volume before, and there are other 
areas where there is a drought in place or other changes that 
change the total character of the weather in other areas. 
Climate change, some are getting snow, some are not getting 
enough water. Fair?
    Mr. Johnson. That is the concern.
    Senator Lautenberg. Yes. So that doesn't suggest that we 
don't have to worry about global warming or that it is a hoax 
or anything like that?
    Mr. Johnson. I believe it is a serious issue.
    Senator Lautenberg. I wanted to ask, we discussed briefly 
the questions that were submitted to you or the statements that 
were submitted to you by Bill Reilly, former Administrator. 
Your decision on the waiver, do you think that has hurt morale, 
credibility of the career employees at EPA?
    Mr. Johnson. No, I don't. Our agency has been identified as 
one of the top among the top employers in the Federal 
Government.
    Senator Lautenberg. What do you mean top, volume? Are you 
talking about numbers of people?
    Mr. Johnson. No, top places to work----
    Senator Lautenberg. Is that DHS?
    Mr. Johnson. No, one of the best places to work in the 
Federal Government, EPA is one of them. My staff know that they 
have an open, and I cherish the ability to have candid comments 
to me. They also know that for a number of these decisions, the 
decision rests with me. Certainly the California waiver was my 
decision under the Clean Air Act and mine alone. I made the 
decision, I made it independently, I carefully considered all 
the comments and I made that decision.
    Senator Lautenberg. Well, do you think that there's any 
disagreement within your senior staff people about your 
decision, your sole decision on the waiver?
    Mr. Johnson. My experience for other decisions that I face 
is that I hear a range of opinions. I also am presented 
typically with a range of options.
    Senator Lautenberg. You hear, but do you listen, then?
    Mr. Johnson. Yes, and I make my decision.
    Senator Lautenberg. You are quite content with things as 
they are, I take it, then?
    Mr. Johnson. I am never content, because I always want to 
take steps to improve our agency, whether it be in the science 
area, whether it be in our personnel, human resources are or 
the activities----
    Senator Lautenberg. You have been a professional in the 
field, Mr. Johnson, for a long time. And it surprises me, to 
say the least, that you haven't issued one word of protest 
about all these cuts, whether it is Superfund, whether it is 
the Energy program, whether it is the revolving fund, all of 
them substantially reduced in budget from previous years, which 
were not heavily supported at that time, that it doesn't seem 
to concern you that I almost feel like we're talking to the 
Chairman of Budget when our assignment really is to make this 
world of ours a healthier place for the people who inhabit it.
    Thank you.
    Senator Boxer. Thank you, Senator, very much.
    We are going to go to Senator Voinovich and then Senator 
Baucus.
    Senator Voinovich. Thank you, Madam Chairman.
    Mr. Johnson, the Clean Water State Revolving Fund, your 
agency has identified almost $6.3 billion of improvements, this 
is in a letter I have just written to you, as necessary to 
address the CSO problems in over 100 communities in Ohio. city 
officials in Akron, Ohio proposed spending $426 million over 30 
years to fix their city's CSO problems.
    Here again, EPA is not stepping up to the plate to assist a 
community's substantial costs needed to mitigate the 
environmental health effects brought about by their system. I 
must tell you that most communities consider this to be an 
unfunded mandate. Many of my communities are facing significant 
economic woes with major employers leaving or threatening to 
leave because they have to take these costs into consideration 
in the manufacturing of their products. The ratepayers can't 
afford to pay them.
    EPA requires an almost one size fits all implementation 
schedule for all wet weather combined sewer overflows related 
improvements. How is EPA actually incorporating affordability 
as a component of CSO agreements and has the agency made any 
adjustments in the process or timeframe for compliance in light 
of recent economic challenges in communities in Ohio and for 
that matter, across the Country?
    I noticed you have this borrowing thing--we are going to 
borrow the money. I think back to when we really made a 
difference in terms of sewers, was back in the beginning of the 
1970's, with the 75/25 program. And that was the major effort 
in this Country to really get something done.
    I sometimes think to myself that the money that we have 
saved because the Federal Government got involved in this 
program in terms of not having to borrow the money to pay for 
it--ultimately you pay for that. As I mentioned in my 
statement, what are you doing to look at the practical 
ramifications of these orders on these communities? What kind 
of flexibility are you willing to get involved with where 
communities can't afford the rate increases? The one in 
northeastern Ohio--think about this--over the next 20 years, 
every year, a 12 percent increase in their sewer rates. Hear 
that? Twelve percent.
    Mr. Johnson. Senator, I agree that it is a very serious 
issue across the Nation. In fact, putting it in perspective, 
our clean water needs survey identified $202 billion of capital 
needs costs. Drinking water, $277 billion, these are 
approximate numbers. So given a $7.14 billion total budget, 
EPA's total budget is not going to solve the Nation's needs in 
drinking water or safe drinking water. So the State Revolving 
Loan funds are a portion, ratepayers are a portion, and a lot 
of other steps, including the steps we have taken for, and 
certainly encouraging you to consider the private activity or 
water enterprise bonds, because we think that is another 
mechanism, the steps we have taken in launching a WaterSense 
program, akin to----
    Senator Voinovich. But the bottom line is that the 
contribution of the Federal Government to this ``unfunded 
mandate'' has been putrid, to say the least. And this budget 
that you submitted is an insult.
    I don't know whether you sat down with the Director of OMB 
and he said, Brother Steve, here is the budget, you figure it 
out. Now, that may be the case. Senator Lautenberg was 
commenting, why aren't you speaking out? Well, you are working 
for the team, you keep your mouth shut. But the fact of the 
matter is that that is an insult to us, when we know what the 
needs are out there in this Country.
    The other issue is the question of the staffing that you 
have at the Department, actual workers in 2007, 17,000 
something, and enacted, 17,324, present budget 17,217. In 
January, we asked, I sent a letter to you, along with 
Congressman Boehner, to work at a transfer of the State of 
Ohio's National Pollution Discharge, NPDS program, for 
concentrated animal feeding operations, CAFO, from the Ohio EPA 
to the Department of Agriculture. ODA formally submitted it, as 
I mentioned, on January 5th, 2007. We haven't heard anything on 
that for over a year. Your Region 5 person said it takes 6 
months.
    The question I have is, do you have the number of people 
that you need to have to get the job done in your agency? And 
if you haven't, you should be speaking up. Because if you 
don't, then what you say to the people who work with you, we 
don't think very much of the job we are asking you to do 
because we are not giving you the budget to get the job done or 
the tools to get the job done.
    While I am at it, we were after you to come back with the 
impact statement on the Lieberman-Warner bill. I want to know, 
when are we going to get that? And when you do your evaluation, 
are you going to give us some idea of how many people the EPA 
is going to have to hire and the quality of the applicants that 
you are going to have in order to implement this legislation?
    Mr. Johnson. On your first question, we are working with 
the State on the transfer of the NPDS program. There were five 
major areas of concern that were identified. Then there were 27 
other aspects dealing with statutory and regulatory authority. 
We are committed to working with the State and we want to make 
sure that it meets the mandate of the Clean Water Act. We are 
actively working, so yes, we do have enough staff. We are 
working through the issues to ensure that the State and we are 
in compliance with the Clean Water Act.
    With regard to evaluating the piece of legislation, we are 
actively doing that. I expect within the next four to 6 weeks, 
perhaps even sooner than four to 6 weeks, that we will have 
that analysis. Of course, in that, there are a number of 
assumptions that one has to make, and then obviously we 
believe, I believe that it helps inform the debate by Members 
of Congress on legislation as to what approach or not what 
approach you want to consider.
    Senator Voinovich. Are you going to have an estimate of the 
number of people that you will need to hire to implement the 
legislation?
    Mr. Johnson. No, sir. We don't, for very piece of possible 
legislation, we don't do a staffing program for that. We 
certainly want to provide you all the information necessary to 
evaluate the options of a climate change legislation. Then once 
you have debated what it should be, we will be happy to 
evaluate what the staffing needs would be.
    Senator Voinovich. I sure think that should be in the 
consideration when you are dealing with anything.
    Senator Boxer. Thank you, Senator.
    Senator Baucus.
    Senator Baucus. Thank you, Madam Chairman.
    Mr. Johnson, I earlier spoke to you about Libby, Montana. 
You have seen Libby, you have been there. Assistant 
Administrator Bodine has been there. You know the travesty, the 
destruction that W.R. Grace has caused to the people of Libby, 
Montana, and frankly, people across this Country, because those 
products are distributed across the Country. As you also know, 
this is not ordinary asbestos, so called chrysotile asbestos, 
this is tremulite asbestos, which is much, much worse, more 
pernicious, gets more deeply embedded in your lungs, harder to 
detect, and the death rate is much higher. Over 200 people died 
in Libby, Montana, it is a small town, and many, many more are 
suffering from asbestos-related diseases.
    I pledged to a man named Les Scramstead, who I met about 8 
years ago in the living room of a friend, who is dying from 
mesothelioma, that I would do all I could to bring justice back 
to the people of Libby, Montana. When I made that pledge, and 
he looked at me straight in the eye and said, Senator, I am 
going to be watching you, because many people have given him 
many promises. That was riveting. I want to do all I can to 
help Les and others.
    Les died last month. He died of mesothelioma. And I have a 
photograph of Les on my desk in my office. I gave a copy to Ms. 
Bodine, she has a copy of it, I hope she has it on her desk. I 
think I even sent you a copy of that photograph, I hope it is 
on your desk.
    My question of you is, can't you just find $2 million to 
clean up the golf course? We have $17 million dedicated to 
clean up Libby's 160 sites. You have $2 million in emergency 
funds going to clean up Flour Creek there in town, in emergency 
funds. I am just asking you to find $2 million to clean up the 
golf course. I am not going to harangue about all this, but I 
am just making a very urgent request. When you look at Les 
Scramstead, and when Ms. Bodine looks at Les Scramstead on her 
desk, I just hope it helps you find a way to find that $2 
million.
    Mr. Johnson. You are absolutely right, it is a tragic, 
tragic situation. Obviously, we are continuing to actively 
pursue W.R. Grace, but also in cleaning up.
    I did want to also comment that I appreciate the 
opportunity to visit in the town hall meeting. It certainly 
leaves a lasting impression of the tragic situation there. I 
wanted to also comment to you that Secretary Leavitt and I are 
continuing to have discussions.
    Senator Baucus. I appreciate that. Here is this guy, he is 
just a good soul. He worked up at the mine, he came off the 
mine, caked with asbestos dust. The company didn't tell him 
anything was wrong. He would go home, embrace his wife, his 
kids would jump into his lap. Good father. He is dead now. His 
wife is dying from asbestos diseases. Three of his kids are 
dying. That is what is happening at Libby.
    I am just asking you to not let other kids die in Libby. 
Clean up that golf course. Clean up the golf course, this year. 
Two million dollars is all it is going to take. You can do it. 
It is the right thing to do. I am asking you to do it. And I 
expect a commitment from you today, if you can't give it to me 
today, I am going to have to keep asking you to give me that 
commitment. You are going to clean up the golf course as well 
as Flour Creek.
    My time is limited----
    Ms. Bodine. I would welcome a dialog with you about the 
relative risk. Because the highest priority that we have at 
Libby is looking after the residents.
    Senator Baucus. I am asking for both. Ms. Bodine, I am not 
going to get into that. I am asking you to do it, and I want 
you to do it. The people of Libby want you to do it. I expect 
you to do it.
    My next question has to do with why are you making such a 
deep cut in your IG spending? It is my understanding that the 
request is to cut the EPW Superfund Program, the Inspector 
General's oversight of the Superfund Program by about 40 
percent from 2008 levels. If you look back a few years, that is 
about a 50 percent cut from enacted 2005. Frankly, it is the 
Inspector General that is enabling the American public to have 
some confidence, some reassurance that their taxpayer dollars 
are being well spent. In fact, it is the IG office that 
criticized the Environmental Protection Agency for failing to 
conduct a comprehensive asbestos toxicity assessment that would 
be necessary to determine the effectiveness of the Clean Air 
Program. That is, you needed some kind of a baseline, and you 
didn't do it. The IG found out that deficiency and mentioned 
that deficiency to EPA, finally they are doing it.
    So I am appalled, frankly, that you are cutting the 
Superfund Program IG's office by at least, since 2004, by 50 
percent. You are cutting it by 40 percent since 2008.
    Mr. Johnson. I respect the independence of the IG's office. 
If Bill could come up.
    Senator Baucus. Why the cut? I am asking you why the cut? 
Especially of such magnitude.
    Mr. Roderick. Sir, this represents a reduction in the 
amount of people we have working on Superfund. Before----
    Senator Baucus. Why fewer people?
    Mr. Roderick. When I first got there in 2006, I found there 
were many more, in the summer of 2006, we had to come up with a 
bunch of work to do in Superfund to meet the requirement of 
spending that much money.
    Senator Baucus. Well, let me tell you that your IG office, 
I compliment them in shining a glaring light on EPA for failure 
to do that baseline toxicity assessment test. I appreciate your 
doing that. You have to trust your gut sometimes. And when I 
look at my gut and ask my gut, what in the world is going on 
with EPA, I have a feeling a lot more could be going on, that 
is, it could be doing a much better job than it is. It is kind 
of slack in many areas. One of the areas is the golf course I 
am talking about right now. I just feel, frankly, that the 
American taxpayers are not getting some of their dollars worth, 
when enough dollars are going to the IG operation to make sure 
that the agency is doing its work.
    I am asking for some way for us to restore that. I think we 
in the Congress were quite disappointed, frankly, that you cut 
the IG operation over 1 year by 40 percent. It doesn't sound 
right. Something doesn't sound right about that.
    Final question, and we have talked about it many times 
here, and that is EPA's Clean Water and Drinking Water Gap 
Analysis. It was found that the Nation would face a $535 
billion backlog by 2019 if you just spent at current levels. 
Huge backlog. The United States has to be competitive in the 
world. When you don't spend enough on clean water, wastewater 
and States match this, as you know, I guess around 20 percent, 
the United States is going to decline, it is going to 
deteriorate. Infrastructure is so, so important to the economic 
well-being of our Country, let alone the health and safety of 
our people.
    Sure, there is a war in Iraq going on. Too much money is 
being spent in that war. I am just appalled, frankly, that the 
Administration and you, because you speak for the 
Administration here today, are not standing up for the American 
people who need more dollars spent on the clean water systems, 
wastewater systems, et cetera, even though your agency tells 
you you have to. I am just stunned, frankly, and very 
disappointed. Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Isakson.
    Senator Isakson. With regard to Senator Baucus' focus on 
asbestos, I might point out, this is not really a question, 
this Committee and the Senate passed Senator Murray's and my 
bill that banned asbestos in the United States last December, 
thanks to the help of the Chairman. Unfortunately, it is still 
bottled up in the committee in the House. I think it would be 
appropriate if both Senator Baucus, because of your personal 
experience--this won't help the people in Libby, but it would 
certainly help prevent that from ever happening again somewhere 
else--might weigh in with the committee and Representative 
Dingell on the importance of getting that bill moving so we can 
finally do what we have tried to do for 38 years, and that is 
ban asbestos in this Country because of mesothelioma and all 
the other things that come along.
    So it might help if you would do that. We would appreciate 
it.
    My questions, MSMA. Are you canceling the registration?
    Mr. Johnson. At this point, sir, we are continuing to look 
at it. As you correctly point out, we did propose to cancel. 
The concern is a concern that it can transform to a more toxic 
form of inorganic arsenic, which may get into the soil and may 
get into the water. For this particular use, it is subject to 
the Food Quality Protection Act, which does not allow us, and 
the Federal Food, Drug and Cosmetic Act, which does not allow 
us to take into consideration benefits. So we are right now 
looking at, is there a way to meet our statutory requirements 
under the Food Quality Protection Act and FFDCA.
    At the same time, is there a way to provide this use. And 
we are very much in the throes of trying to sort that out. As 
you pointed out, Jim Gulliford, our Assistant Administrator, 
went out to your State to try to better understand. We are 
looking at that right now.
    Senator Isakson. Is there a timetable on that decision?
    Mr. Johnson. I will have to turn to Jim.
    Mr. Gulliford. I don't know the exact timetable, but over 
the next 6 months.
    Mr. Johnson. Within the next 6 months.
    Senator Isakson. OK. I am not a scientist, I am not a 
physician, I am not an expert. I have looked into this issue 
and listened intently to the arguments. Based on some other 
things, I know arsenic is a naturally occurring element in the 
soil and can occur naturally. I was somewhat impressed by the 
questions that were raised by the cotton farmers as to 
challenging the scientific information that EPA was using in 
making that determination. I am not a scientist, I can't tell, 
but I do know this. There is not currently a substitute. The 
pervasive pigweed will destroy or greatly reduce the cotton 
production in the fields. Our farmers are getting ready to go 
to the fields in April and late March to plant. And if EPA is 
going to make a decision, at least it should be a decision that 
is beyond the current season coming up in terms of what they 
are going to do. But hopefully, we will make that 
consideration, making sure the scientific data is absolutely 
iron-clad, fool-proof and not just an opinion. Because this is 
real money, it is real livelihood. It is a significant part of 
the agri-business in our State. So hopefully take into 
consideration both the timing of it, vis-a-vis what these 
people are getting ready to risk by putting the seed into the 
ground, and second, make sure that the data is conclusive, I 
would appreciate both those considerations.
    With regard to the Rural Drinking Water program that 
expires in June, will it expire?
    Mr. Johnson. It so turns out I am actually meeting with the 
National Rural Water Association today. Depending on the 
schedule of the hearing, I suppose.
    Senator Isakson. I will rush my questions up, then, I don't 
want you to miss that meeting. I think Senator Craig and some 
others made the comment about the resources that many of our 
small communities have to actually meet the complex demands of 
the Clean Water Act. This program has been essential in 
providing the technical assistance to help these communities 
comply. It is not a matter of people not wanting to comply. It 
is a matter of being able to understand and execute how to do 
it.
    So I would encourage you to do everything you can to 
continue that program. This is of tremendous value to our rural 
communities in Georgia.
    Mr. Johnson. Thank you.
    Senator Isakson. Last question. I got a bunch of mail 
recently, after we passed the Energy Bill, about the mercury 
content of fluorescent bulbs. In the Energy Bill we passed, we 
are accelerating and encouraging the use of the fluorescent 
bulbs rather than the incandescent bulb. Does EPA have any 
number on what the content of mercury is in fluorescent bulbs, 
and a way to keep that from getting into landfills and 
subsequently, the water table?
    Mr. Johnson. We do have information, and in fact, on our 
website, we do have recommended disposal procedures. Two things 
are happening. One is, we are continuing to learn more about 
proper handling and doing additional investigation to make sure 
that those are handled properly. Second is that we are 
certainly aware that the industry itself is looking for the 
next step, if you will, beyond mercury, which we think is good 
as well.
    I should note that as you mentioned earlier, I am going to 
be in your State, and we are actually going to be taking out 
the millionth mercury auto switch out of an old automobile. 
That represents, the total that we believe is out there is on 
the order of approximately 75 tons of mercury that would have 
gotten into scrap metal, that would have gotten into the air 
that we would have had to deal with. Having a program that we 
have all been able to work together to just physically take it 
out in the beginning, as these old cars are scrapped, is a 
great collaborative achievement. I am looking forward to our 
visit and taking that millionth switch out.
    Senator Isakson. The Cogan family are recyclers, Madam 
Chairman, in the State of Georgia and have been really 
proactive in this effort and have really contributed to the 
reduction, in cooperation with EPA, to the reduction of mercury 
going into the environment tremendously. We are looking forward 
to having you.
    Mr. Johnson. Good. Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Klobuchar.
    Senator Klobuchar. Thank you, Madam Chair, and thank you, 
Administrator Johnson, for being here.
    To try to make a segue from Senator Isakson's comments, I 
appreciate the work you have done with these auto switches. But 
if we can count in the EPA our millionth auto switch, I hope we 
can count our millionth ton of carbon. I am very concerned that 
there isn't funding in this budget, the President has not put 
funding in the budget for this carbon registry. I know the last 
time we had the hearing on the California waiver that Senator 
Carper and others, we talked to you about the progress made 
this carbon registry, the fact that we don't really have the 
national registry going yet. At the same time, we have 24 
States starting their own. Can you tell me what progress has 
been made?
    Mr. Johnson. Yes, I would be happy to, Senator. As I 
mentioned at our last hearing, as you are all well aware, we 
had $3.5 million as part of our 2008 Omnibus Appropriation, and 
that we are using those moneys to establish a greenhouse gas 
registry. It is my intent that we will meet the schedule that 
is part of the Omnibus Appropriation, which is approximately to 
try to have a draft in the May timeframe, and then a final by 
next year in 2009.
    This is 2-year money. We expect to use these moneys to 
actually establish a registry. I will note that the money that 
we do have for these next few years would not be sufficient for 
the operation of a registry. Certainly that is going to be a 
needed budget consideration for beyond 2009.
    But for purposes of this and next, we intend to use that 
$3.5 million to create and do what the Omnibus Appropriation 
directed us to do: to create a greenhouse gas registry.
    Senator Klobuchar. And are you using third-party 
verification? Do you have any of the details of it?
    Mr. Johnson. I know that we have begun to work with States. 
I know that there is California and seven other States that 
have or are developing greenhouse gas registries. Again, part 
of the encouragement by you all was to do that. I think that is 
good government and that is what we are doing.
    The specifics of what that registry will look like, we are 
still in the early stages of putting together and assessing 
what all the States are doing and how we can bring this 
together. But we are doing it.
    Senator Klobuchar. Do you not believe that in EPA's mission 
that you could have started doing this yourself? Why would it 
take Congress to push you to get to this point, when courts and 
others have said that you do have the jurisdiction over trying 
to do something about these greenhouse gas emissions? And I 
guess my next question would be, why didn't the President put 
it into his budget to continue this funding?
    Mr. Johnson. Let me, if I may, Senator, I want to get the 
dates correct. The draft rule within 9 months of enactment is 
actually September. Then the final rule, not later than 18 
months, which is May, June 2009.
    The second is that we believe that the $3.5 million for 
this and next are sufficient, based upon what we know, to 
develop the greenhouse gas registry.
    Senator Klobuchar. But there is no funding to actually 
enact it or keep it going.
    Mr. Johnson. Again, we don't know what the registry will 
look like or what will be required to keep it going. So we 
think that it is prudent----
    Senator Klobuchar. To zero it out?
    Mr. Johnson. No. We think that it is prudent to first of 
all, work our way through to establish it. Obviously we want to 
be able to establish in a way that meets the intent of Congress 
of having a mandatory registry. At the same time, we want to 
make sure that we are doing it, and the maintenance of that 
will be done in the most cost-effective way.
    At this point, we don't know what it is going to look like, 
so we don't know what the costs are. That is why I highlighted 
the issue for out-budget years of the need for the maintenance.
    Senator Klobuchar. OK. I would just point out that other 
countries have been able to do these registries and put it 
together. You have plenty of examples to look at. Again, I am 
concerned that it just keeps taking acts of Congress, and 
Senator Feinstein and Senator Boxer and others to push this 
funding, that your own agency won't come with requests for this 
funding, won't come saying that this is something we have to do 
to start moving on greenhouse gases.
    Then at the same time, not only is the President talking 
about it in his State of the Union, but you are issuing these 
press releases. This one was, the first time I saw it, it is 
dated February 2d, where you actually praised the IPCC report 
and talked about how it is a great day for the scientific body 
of knowledge on climate change. And we know what that report 
says, it says that we can't keep waiting, that we have to act. 
Again, this budget is just not consistent with praising this 
report, which is telling the world that we have to act on 
greenhouses gases.
    That really ties into what we were talking about last time 
with the California waiver, where we went through the 
standards, and I think you said the standard that applies here, 
or the reason that you denied the waiver was that California 
does not need such State standards to meet compelling and 
extraordinary conditions, I think we have gone through that. I 
am just wondering, given that you have now issued this press 
release praising the IPCC report, I go back to my argument 
before that this report contains the information that you need 
to grant California's waiver.
    Mr. Johnson. First, the issue on the California waiver is 
not whether there is or isn't global climate change. And I am 
directed under Section 209, as we discussed, to look at the 
criteria. That is what I did. I evaluated it, I made the 
decision, I have committed to both Chairman Boxer and the 
Governor to have that documented completed by the end of this 
month, which means Friday. And I intend to meet that deadline.
    Second is that we have staff who are active participants as 
part of the IPCC process. It is a very good process, a group of 
highly qualified scientists. And in fact, as you will see later 
this week, the scientific rationale for my decision, which I 
believe is the right decision on the California waiver, I 
understand that Members of Congress and others disagree with 
that decision. As I said, I will have my final decision out, 
the documentation out by the end of the week. Then we can 
continue the debate. But it is time to move on.
    Senator Klobuchar. We have been debating a long time, 
Administrator Johnson. You also said in this press release how 
you are proud of the Bush administration's unparalleled 
efforts. I had trouble saying that word, because I just don't 
agree with it. Unparalleled efforts to reduce global greenhouse 
gas emissions. I am thinking of what some of these other 
countries have done with greenhouse gases. I am thinking about 
what these States have done. I don't understand how you can say 
it is unparalleled when in fact in this Country the States have 
been taking the lead instead of the Administration.
    Mr. Johnson. Again, I would be happy to recite the 
statistics: $37 billion of investment, no other nation in the 
world has invested that kind of money in addressing both the 
science as well as technology, addressing it, and we----
    Senator Klobuchar. Where have the greenhouse gas emissions 
gone, reductions, vis-a-vis where they were in 1990?
    Mr. Johnson. Again, when you look at economic growth and 
global climate change, we are making progress, and that is 
good.
    Senator Klobuchar. But what are the results of the 
reductions compared to what we are trying to do with our 
Lieberman-Warner bill, where we are saying by 2050 we will have 
the reductions to 70 percent reduction? I am just asking, you 
guys have been in now for 8 years. So what is the reduction?
    Mr. Johnson. I would be happy to share with you the results 
that we have been tracking.
    Senator Klobuchar. It doesn't look to me that there have 
been reductions, it looks to me like we have been adding to the 
problem.
    Thank you.
    Senator Boxer. Thank you very much, Senator.
    What we are going to do is have Senator Carper, then I am 
going to go, because I maybe need two more rounds. So I am 
going to go, then we are going to go to Senator Cardin, Senator 
Whitehouse and then as people come in.
    So, Senator Carper, the floor is yours.
    Senator Carper. Just very briefly to followup on what 
Senator Klobuchar was saying at the end. As Governor of 
Delaware, we worked a whole lot on education reform, raising 
student achievement. And there was a time when we were intent, 
as we looked at progress in our schools, we judged, we tended 
to look at prior, like how much we are spending in our schools, 
the inputs. We weren't measuring the results we were getting in 
terms of the improvement in student achievement. I think a 
little bit that, I am reminded of that situation as we look at 
the subject the two of you were just discussing.
    Let me hit a couple of positive notes to start off with. 
Again, thank you very much for joining us today and for your 
testimony.
    I am pleased, again, with the level of funding that is in 
the President's budget for diesel emission reductions. I have a 
question that relates to that, but I am pleased that you have 
come in at, I think $49 million.
    Someone raised the issue of EPA Star, the energy efficiency 
program. I think the mentioned a $4 million cut below current 
levels. That is not a huge cut, but it probably does a whole 
lot of good. I have seen it with my own eyes, including in our 
schools. We have a number of schools in our State who figured 
out, maybe it is smarter to be able to conserve energy in our 
schools and use that money to put in the classroom. Smaller 
class size, better teachers, better trained teachers, it 
actually works. So there is a lot of good going on in that 
program. I hope we can find that $4 million and put it back in.
    As you know, early this month, I think it was the D.C. 
Circuit Court that vacated EPA's mercury rule and determined 
that EPA should have regulated mercury as a hazardous substance 
and imposed, I think they didn't just remand the rule, I think 
they vacated the rule. Basically, sent it back and said, start 
all over again. For me, that is a welcome decision. I think for 
a number of my colleagues, it is too. I thought the initial 
rule was flawed when it was promulgated. I still believe it 
doesn't go far enough to protect public health.
    I would just like to know, how does EPA plan to respond to 
the court's decision?
    Mr. Johnson. At the moment, EPA and the Department of 
Justice are reviewing the opinion to decide what the next steps 
are. Obviously I am disappointed that the court has rolled back 
the first-ever regulation of mercury for coal-fired power 
plants. But at this point, we are still reviewing, we are 
reviewing the opinion with the Department of Justice to 
determine our next step.
    I might point out that the other regulation that I did put 
in place, the Clean Air InterState Rule, which addresses SOx 
and NOx, we recognize that because of the use of technologies 
to address those, we also get some early reductions of mercury, 
which is obviously good.
    Senator Carper. Senator Alexander is not here ta this time, 
but he and I have worked for some time, along with our 
colleagues, on the multi-pollutant legislation involving power 
plants. Part of it was mercury, we called for a 90 percent 
reduction in mercury emissions by 2015. When we started calling 
for that, roughly five, 6 years ago, I don't know that we had 
the technology to do the job then. We have the technology 
today. It is there, it is doable. We have introduced 
legislation with some of our colleagues since the court 
decision to call for a 90 percent reduction in mercury 
emissions by 2012. My hope is that, I don't know if we are 
going to be able to do this during your watch, but at least we 
want to move in that direction in the months ahead.
    I telegraphed earlier in my comments one of the questions I 
wanted to raise, and that is the National Ambient Air Quality 
Standards. You are going through a process for gathering a lot 
of input, some for strengthening the provisions and standards, 
others I think are pushing back saying no, maintain the status 
quo. Just give us an update, if you will, where do we stand in 
the process? Have you made your recommendations to OMB? Is the 
ball in their court? Where are we?
    Mr. Johnson. My final decision will be issued and released 
on March 12th, which is the court-ordered deadline, on or 
before, I should say, before March 12th. I am fully aware in 
establishing a primary standard, the law requires me to 
establish a standard that is requisite to protect public health 
with an adequate margin of safety. As you noted, I think, in 
the last hearing, that I propose to lower the standard, because 
I did not feel that the current standard was requisite to 
protect public health with an adequate margin of safety. So we 
have now assessed all the comments and I am prepared to make my 
final decision, have my final decision announced on or before 
that date.
    Senator Carper. I look forward to March 12th, and I would 
urge you to follow your heart and your commitment to sound 
science, and to protecting human health. We will see what March 
12th brings.
    Mr. Johnson. Thank you.
    Senator Carper. Last question I want to raise, as part of 
EPA's National Clean Diesel campaign, I think you all set a 
goal to retrofit some 11 million diesel engines that are in use 
today with clean diesel technology, I want to say by 2014, 
something like that. I think that is a laudable goal. How does 
the agency plan to achieve its 11 million by that target and 
what can we do here in this Committee and the Senate and the 
Congress to help?
    Mr. Johnson. Certainly, in the budget request, as you point 
out, we have a request, the President is requesting $49.2 
million for the diesel retrofit program, which we think is 
really important. We are certainly encouraging communities 
really around the Nation to take that step to either retrofit 
or replace or rebuild, a statistic that I think really 
characterizes the importance or the opportunity for 
environmental protection.
    If 100 bulldozers were retrofitted with the new technology, 
those 100 bulldozers would eliminate 16 tons of pollution every 
year. So the opportunity for making a difference 
environmentally with diesel, either retrofitting or rebuilding 
or replacing them, is significant. We certainly are encouraging 
anyone and everyone to do all that they can to make that 
commitment, and certainly the President's budget also supports 
that.
    Senator Carper. The last thing I would like to mention, 
going back to mercury emissions, you have heard me say, we 
talked about this, I just think Americans have waited too long 
to be safer from unhealthy mercury emissions. I said earlier, 
cost-effective technology exists today that did not exist when 
I started working on this stuff six, 7 years ago.
    I want to ask you a favor. I want to ask you and ask the 
agency to provide me and I would ask to my colleagues as well, 
we will say by April 1st, some people say that is April Fool's 
day, but we will go with it anyway, provide us by April 1st a 
formal plan on how the agency intends to proceed with the 
mercury rule. I would ask that and urge you, finally, I would 
urge you not to appeal the court's decision, to find a way to 
start over and to find a way that will do a better job of 
protecting us against harmful mercury pollution. But I would 
make that request.
    Mr. Johnson. OK.
    Senator Carper. Thank you very much. Thank you, Madam 
Chair.
    Senator Boxer. Thank you, Senator.
    Senator Craig.
    Senator Craig. Madam Chairman, thank you. I am glad Senator 
Voinovich is back with us, because the course of questions I 
would like to take you through, or at least one, Administrator 
Johnson, is unique because it appears by the dialog that you 
and Senator Voinovich had that the State of Ohio is attempting 
to take over, through their department of agriculture, the 
inspection of the large Confined Animal Feeding Operations.
    EPA in Idaho is party to an MOU with the State for the 
State monitoring the environmental compliance of beef cattle 
and dairy CAFOs. We have done that since 2000. Here is an 
interesting statistic.
    Since 2000, Idaho has conducted over 3,400 inspections of 
beef cattle and dairy large operations. In the 5-years prior, 
Senator Voinovich, to the MOU, EPA had conducted 102 
inspections. So it sounds like, or one would think that Idaho 
was being substantially more thorough than EPA had been in the 
past five. Despite this record, it appears now that EPA is 
critical of the State's effort and is going so far as to engage 
in duplicative enforcement actions.
    So I guess my question is, if EPA's goal is compliance, can 
you tell me why the agency is, for example, increasing the 
enforcement budget while at the same time failing to honor 
existing successful cooperative agreements with States like 
Idaho?
    Mr. Johnson. I know that we have been working very closely 
with the State of Idaho and a number of other States on the 
implementation of our CAFO and ultimately what will be the 
final regs, which I expect later this summer.
    With regard to the enforcement piece of it, I will turn to 
Granta Nakayama, who is the Assistant Administrator for our 
Office of Compliance Assistance.
    Mr. Nakayama. I appreciate your question. I did travel out 
to Boise and met with Celia Gold, your Secretary of 
Agriculture, out there. I think there has been a renewal of the 
working relationship, frankly, between Region 10 and Idaho to 
work together.
    Senator Craig. Good, because it was deteriorated.
    Mr. Nakayama. It was. And I think we are on a new track. I 
will say there are some authorities that we have under the 
Clean Water Act federally that are not present in the State's 
law and therefore, with particular types of facilities and 
particular types of violations, there really is no choice but 
to address them federally. Though in our first instance, we 
prefer the State to move forward and the State has moved 
forward.
    I think they have made a lot of progress. We also met with 
the cattlemen out there, and I think there is a better 
understanding on both sides. I think there is a renewed spirit 
on the part of the industry to move into compliance, move 
forward and get a good final CAFO rule here later this year.
    Senator Craig. Stay at the table, then, because you 
mentioned the regulations that are coming out. We hope they do 
come out. I said earlier in my opening comments, we want them, 
we need them, we need to get our industry moving toward full 
compliance and the State to have sound footing. However, 
considering the later than expected release of the new regs, 
can you tell me if EPA is considering pushing back the 
compliance date to give our livestock industry and the folks 
involved with it a reasonable period to make the necessary 
changes in our operations to bring them into compliance?
    Mr. Nakayama. I do work closely with our Office of Water. 
They are the lead office with respect to the regulations, so I 
am going to have to defer to Mr. Grumbles here.
    Mr. Grumbles. Senator, Ben Grumbles, Office of Water.
    Senator Craig. Yes, Ben.
    Mr. Grumbles. Since March 2002, actually 2003, we have had 
the regulations out on the books. We have been working with the 
cattle industry and livestock producers over the years to 
follow through on the basics and standards. We have gone back 
to the drawing board. The plan is to finalize the rule by July.
    Earlier last year, we extended a compliance date to 
February 27th, 2009. Right now, our current intention is to get 
this rule finalized, the finishing touches on it, so that we do 
not have to move that compliance date. It is very important to 
us to work with the States and others to hear what needs they 
will have in order to assure compliance. But right now, that 
date was put there quite a while ago to let everyone on notice 
that that would be the compliance date.
    So we will hear, take comment from folks as to the ability 
to meet that date. But that is an important date that we are 
going to be focusing on.
    Senator Craig. We will obviously be focused on it, too, so 
that there is a cooperative effort as these large operations 
move forward to get into compliance. There is a timeline of 
that kind of investment in the capability of making it and 
having the resources to make it. All I guess I would say to 
you, Senator Voinovich, is be careful what one asks for.
    Having said that, Madam Chairman, let me just pose this 
interesting problem we have. Probably last summer was the worst 
air quality summer my beautiful State of Idaho had. In the 
greater Boise valley, we were probably out of compliance more 
days, not because we hadn't strived to meet the standards, but 
because another Federal agency was mismanaging a very major 
resource in my State.
    We burned 2 million acres of timberland in Idaho last year, 
and we achieved a summer of smoke as a result of it. I am only 
saying this for the record, Madam Chairman, because I find it 
really very fascinating. We have one Federal agency saying, 
here are the standards that you must comply with, and frankly, 
another Federal agency not dealing with their problem and 
polluting at a greater level than anyone in Idaho can possibly 
deal with.
    I don't ask you to comment on it, Administrator Johnson. I 
just find that sometimes, we catch ourselves in catch-22s. And 
in the west, in certain areas of the west last summer, after 
probably one of our worst fire seasons in history and more to 
come, probably, there may be a day when we are going to have to 
ask for reasonable flexibility on the other side of the Federal 
equation. Thank you.
    Senator Boxer. Thank you, Senator.
    When Senator Lautenberg asked you if you were satisfied 
with the agency, you were very, I think, gave a good answer, 
you said no, we can always improve things. Well, I want to give 
you some unsolicited advice, I think it is good advice, of how 
you can improve things. First, you should go back to the 
President and be an advocate for your agency. And tell him, 
there is bipartisan support for almost every one of the 
programs that he has cut, give him the letter that I signed 
with Senator Inhofe on that. And basically say to the 
President, the EPA is about protecting the health of the 
American people, Mr. President, for goodness sakes, all the 
cuts to the EPA that are causing such angst in the Senate, they 
add up to $330 million. That is equal to 1 day's spending in 
Iraq, Mr. President. One day's spending in Iraq equals all the 
cuts that are causing all this angst.
    So I think you could really improve morale around there, 
now you say morale is good. That is not the story I have.
    I can also tell you want to improve the agency. Then say 
yes to Senator Baucus. Don't bring your bureaucrat up here to 
tell him about something about risk. He is asking for $2 
million to save lives. Say yes. That is 10 minutes in Iraq. I 
think you should find it in your heart to do that.
    And listen to your own employees. I ask unanimous consent 
to place into the record a letter from these employees.
    [The referenced material was not received at time of 
print.]
    Senator Boxer. They say, as per the waiver, we lament your 
decision. We lament it. It is perceived by many as having been 
politically motivated, and it has prompted congressional 
investigations and it has cast a negative light on our agency. 
To some degree, your actions have placed us in a negative light 
through guilt by association.
    Grant the waiver, if you want to improve the agency, grant 
the waiver.
    Now, I want to make a point. You are the first one to say 
no. Fifty years of granting waivers, and you are wasting 
taxpayer money on lawsuits, it is an outrage. You are not 
listening to the people in your agency, it is a complete 
outrage.
    Now, I want the rest of those documents on behalf of this 
Committee. We have to do oversight. Where are the documents, 
the ones we are waiting for? You said, I asked you at the last 
hearing, ``Will those documents include, as we were told, e-
mails between you and your staff and the White House and the 
executive branch or the White House and the Vice President's 
office?'' And I continue, ``Your staff tells us that there were 
those documents. As far as you know, will you get all the 
information by February 15th, is that right?'' You said, ``That 
is my understanding, that is correct.''
    Well, the Committee doesn't have those e-mails. And I know 
you went to the White House. I have that. That I have. You went 
to the White House particularly for the California waiver 
conversation. And I want to know what happened at that meeting. 
I think it is the right of the people to understand who 
influenced your decision.
    So I would like to ask you again, at any time, did you 
receive advice from the President, the Vice President, the 
White House staff, anyone over there in terms of the waiver? 
And I would like to have a yes or no decision and I would like 
to know when I am going to get those e-mails.
    Mr. Johnson. As I said at the last hearing, it was my 
decision and my decision alone. It is my responsibility under 
the Clean Air Act and I made the decision. I made the decision 
as Administrator of the EPA.
    With regard to the documents, as I said at the last 
oversight hearing, and I will quote from page 55 of the 
transcript, ``I commit to provide you those documents as 
quickly as possible, according to the guidelines that our staff 
have discussed.'' These commitments and deadlines are best 
described in the January 18th letter which I would ask be 
placed in the record.
    Senator Boxer. OK. Are you getting me, you said to me, I 
asked you for the e-mails between the White House, the Vice 
President and your agency. You committed to do it. Are you now 
telling me you will not produce those e-mails, or will you?
    Mr. Johnson. No, I just merely quoted from the last 
hearing.
    Senator Boxer. When will we have them? Let's stop quoting. 
I will stop quoting. New question: when will we get those e-
mails?
    Mr. Johnson. We are consulting with various parts of the 
executive branch about the documents that involve their 
interests as we speak.
    Senator Boxer. Do you have an answer as to when I am going 
to get those e-mails? Those documents are not privileged.
    Mr. Johnson. Again----
    Senator Boxer. We have a right to have those documents. 
When can we get them?
    Mr. Johnson. We are consulting with them about the ones 
that involve their interests and would be happy to provide you 
an update. We have been updating----
    Senator Boxer. I don't want an update. I want the 
documents.
    Mr. Johnson. As I said----
    Senator Boxer. I want them on behalf of this Committee. We 
have to do our oversight and I want them on behalf of the 
people of California and the 19 other States that are involved. 
This is a big deal. You denied the first waiver ever under the 
Clean Air Act. I want the information. This is my job. That is 
why I am sent here. I can't do my job if I don't have the 
information.
    So there is no answer now. We originally were told February 
15th. Now we're getting a dance. Well, those documents will be 
subpoenaed. I assure you of that.
    Now, you keep saying there were, you didn't deny, you 
denied the waiver because California didn't face compelling and 
extraordinary circumstances. Let's look at what your own people 
told you about that. This was redacted, we had to type it up, 
but we are going to put it into the record now.
    [The referenced material was not received at time of 
print.]
    Senator Boxer. I will just read a little bit.
    This is your own staff: ``California has submitted an 
extensive record concerning the impact of climatic conditions 
on California, including coastal resources and erosion, 
saltwater intrusion on delta areas, levee collapsing and 
flooding, decrease in winter snow pack, reducing spring and 
summer runoff from municipal and agricultural uses. California 
has submitted justifications based on impact on high ozone. EPA 
traditionally looks broadly at whether California conditions,'' 
and so on and so forth.
    Congress wanted California to be afforded the broadest 
possible discretion in selecting the best means to protect the 
health of its citizens and the public welfare. Now, that is 
your staff. You didn't listen to your staff. We are putting 
this into the record.
    The fact of the matter is, you are forcing the State of 
California and 19 other States, which I might say for the 
record including more than half of the American people, more 
than half of the American people, that is who you are forcing 
to sue you.
    Now, it isn't as if you have a great track record on 
lawsuits. Let's take a look at your track record on lawsuits. 
Sometimes I thank God that we have the courts, given what you 
have done or tried to do. We can go to Massachusetts v. EPA, 
Supreme Court rejected EPA's argument that greenhouse gases are 
not air pollutants. We can go to New York v. EPA, EPA's 
interpretation that substantial plant modifications did not 
come within the scope of any physical change, would make sense 
only in a Humpty-Dumpty world. Humpty-Dumpty world, that is 
what you caused them to say.
    New Jersey v. EPA, EPA rules seeking to reverse controls on 
mercury from power plants was unlawful on its face. EPA's 
explanation deploys the logic of the Queen of Hearts, 
substituting EPA's desires for the plain text of the section. 
Northeast Maryland Waste Disposal Authority v. EPA, D.C. 
Circuit, chastised EPA for taking an unlawful approach to 
emissions standards, based on precisely the rationale rejected 
previously by the same court in Maryland.
    Mossville Environmental Action NOW v. EPA, EPA's effort, 
this is all the court quotes, from the courts. EPA's effort to 
exempt whole categories of toxic pollutants from regulations 
violated its clear statutory obligation to set emissions for 
each listed pollutant. Here is one from California. It says, 
portions of EPA smog rule unlawfully evaded the plain language 
of the Clean Air Act, which Congress purposely crafted to limit 
EPA's discretion. Sierra Club v. EPA, these are all in the last 
2 years, if EPA disagrees with the Clean Air Act's requirements 
for setting emissions standards, it should take its concerns to 
Congress. If EPA disagrees with this Court's interpretation of 
the Clean Air Act, it should seek further review. In the 
meantime, it must obey the Clean Air Act as written by Congress 
and interpreted by the courts.
    NRDC v. EPA, EPA incinerator rules violated the clear and 
unambiguous language of the statute. EPA acknowledges as much 
when it objects to a literal reading of the definition's 
language. And the last one I will cite, NRDC v. EPA, EPA's 
attempt to create a low-risk subcategory of manufacturing 
facilities exempted from Clean Air Act standards was an 
unlawful attempt to sidestep what Congress has plainly 
prohibited.
    You have a rotten track record and the courts have upheld 
the law and protected the American people. Now you are starting 
a whole new brouhaha. And I want to say to you now, because you 
haven't made your decision yet, you are writing it, you are 
going to sign off on it in a couple of days, I am asking you to 
reconsider. Why are you putting half the people in the United 
States of America, A, at risk, because the pollution that we 
want to clean up can't be cleaned up until the court's suit is 
resolved, B, having them spend a fortune on these lawsuits when 
you have a horrible track record and C, when Senator Obama, 
Senator Clinton and Senator McCain said their administrations 
are going to sign this waiver?
    So for all of those reasons, I ask you to reconsider. And I 
ask you to get us the materials you promised us the last time 
you were here. And I am just saying, Mr. Johnson, for me, as 
someone who got into politics, I got into them for three 
reasons. One of them was the environment. I am so appalled at 
the record that you have established here. Just reading the 
cursory opinions here, you see how you have gone against the 
laws that are supposed to protect the American people.
    So I am simply asking you to reconsider your position on 
the waiver, restore some integrity to the EPA, stop us from 
having to expend all this money on lawsuits for something that 
you are going to be reversed on very, very quickly. I hope you 
will consider that.
    Senator Voinovich.
    Senator Voinovich. Madam Chairman, I think you took an 
extra 4 minutes. I don't expect to take 11, but I would like to 
have some more time, since you brought the subject up.
    Senator Boxer. You got it.
    Senator Voinovich. OK. The Chairman of the Committee is----
    Senator Boxer. Let it be noted, everyone will have as much 
time as I took.
    Senator Voinovich. The Chairman of the Committee made 
mention of the fact that this redacted information is going to 
be put in the record. Would anyone from your shop want to 
comment on what that does to your court case? It is just the 
kind of information that, from what I understand, should not be 
in the public record, it is redacted information. Would you 
like to comment on that, sir?
    Mr. Johnson. Senator, thank you. It is true that a certain 
number of our documents contain confidential, deliberative 
attorney-client or attorney work product information. We would 
ordinarily assert a privilege in litigation. Obviously I and 
the Government needs the ability to defend its actions. In a 
spirit of transparency and a spirit of being top priority, I 
made the information available to the Committee so that you 
could see everything. And we have just as a note in the last 2 
months, we have spent 2,000 hours of staff time assembling and 
putting together the approximately 5,000 documents, that were 
otherwise made available as part of this process.
    Senator Voinovich. And the propriety of putting this into 
the record?
    Mr. Johnson. Again, I think it impedes the Government's 
ability to defend its actions. I think that is something that 
should be preserved. While recognizing the Committee has 
oversight responsibilities, and that is the balance that I 
believe we struck in providing the information so that everyone 
could see that information.
    Senator Voinovich. I would like to talk to the Chairman, 
not at this hearing, but perhaps privately about information 
that we requested that we are supposed to see and the propriety 
of taking that information and sticking it into the record.
    Senator Boxer. If I might, would you halt the clock for the 
Senator? Let me say, I have stopped the clock, and let me just 
be clear, the law requires Mr. Johnson to turn over this 
information. This is not in the spirit of this, that or the 
other. This is, the law requires under our oversight. Now, the 
fact is, this is not privileged information. And the fact is, 
you are complaining about 2,000 hours, a lot of that time was 
spent looking over the shoulders of my staff, who had to copy 
down every word because you wouldn't turn over the documents to 
us.
    So let's be clear, and we will put in the record the law 
that pertains to the rights of the American people to see this 
information and the rights of this Committee to get this 
information.
    Senator Voinovich. Thank you.
    We talked about DERA and I would like to know, if it is 
proprietary in your own department, but I would like to get an 
idea of whoever does your budget for you, do you take into 
consideration the leveraging that Federal money has on a 
particular issue? For example, with DERA, my information is 
that for every dollar you put in, you leverage another two to 
three dollars. I don't know if that is the case or not, that 
was the representation made. But is that taken into 
consideration? Sometimes the Federal money--I call it the yeast 
that raises the dough. In this particular case, the DERA money 
is yeast, and I would like to know, when you are calculating 
your budget, if you take into consideration what other money 
will be generated, because you have made the appropriation?
    Mr. Johnson. It certainly is part of our budget 
justification. When we have that information we certainly like 
to highlight it, because we think that that certainly adds a 
weight of evidence to why it is a good investment.
    Senator Voinovich. I would like to sit down and have my 
staff people sit down and look at that. The other thing is that 
I had a wonderful meeting with Ben on the geological 
sequestration of CO2 and you proposed or requested $115 million 
to continue research in voluntary and technology based programs 
in climate change. The question is, what part of these funds 
will be used to assist in the rulemaking process and what 
resource dollars and FTEs are necessary to have a final rule in 
place not later than 2011? And where do these resources appear 
in the budget?
    Mr. Johnson. Senator, one of the places that I do know that 
they appear in the budget is part of the $14 million that the 
President is asking for permitting for energy production. There 
is about, a little over $2 million that is part of the carbon 
sequestration rule development. I am looking to see where else 
it might appear.
    I will have to get back to you for the record. As I said, I 
am aware that it is part of the $14 million, it is certainly 
part of that, and maybe other places as well, which we will 
have to get back to you on for the record.
    Senator Voinovich. Going to another subject, in terms of 
FTEs and I mentioned the numbers that you had before and what 
you are asking for, do you have anything on paper that I could 
look at or my staff could look at that shows how many are being 
assigned to one job and then the next year being assigned to 
some other job? In other words, I want to get a sense of 
whether or not you have the people that you need to get the job 
done. And I know, I was a mayor and a Governor and we got X 
number of dollars, folks, and do the best you can. But I am 
really concerned that we have loaded a lot more stuff on the 
Environmental Protection Agency than we have in the past. I 
would like to get a feel of whether or not you have the people 
that you need to do the work that we are asking you to do. It 
may be more than what you asked for, but I would like to know, 
just what does it take for you to do your work?
    Mr. Johnson. Senator, if I might ask my Deputy, Marcus, to 
respond.
    Mr. Peacock. Senator, in fact we have a human capital plan 
that was put into place in 2003. One of the objectives was to 
look to the future and determine what skills the agency would 
need, compare those to the skills we have, then we could 
identify the gaps and then fill those gaps. We have gone pretty 
far down the road to doing that.
    We have identified, for instance, I think initially six 
skills that we will need more of in the future, and looking to 
make sure we either have those skills coming into the agency or 
already have them in the agency. We can certainly provide more 
information on that.
    Senator Voinovich. I would really appreciate it. And what 
you just said tickles me a lot, because as you know, I have 
been working on human capital a long time with Senator Akaka on 
another committee. The successful and transition were not part 
of many of the agencies' plans for the future. It is nice to 
know that you are doing it.
    I would like to even see it.
    Mr. Peacock. I don't think it is something we would be 
doing without your leadership n the past on this issue.
    Senator Voinovich. Good. That is one of the reasons why I 
am here, to make a difference.
    The President's executive order on the Great Lakes, and we 
really were happy with it, a national treasure, Steve, your 
predecessor Mike Leavitt spent 6 months on it, and I thought he 
did a bang-up job of bringing everybody together and so on.
    But I am concerned that we are not getting the kind of 
coordination among the various Federal agencies that we had 
hoped to get. The Inter-agency Task Force includes nine Cabinet 
departments, as well as the Council on Environmental Quality. I 
have been concerned about coordinating Federal activities and 
getting the most out of taxpayer dollars. The thought I had was 
that if we could get these people all in a room, look at the 
dollars that they are spending on their respective 
responsibilities and seeing if there isn't some way you could 
meld some of them together to get a bigger return on your 
dollar.
    And the question I have is any effort being made to ensure 
that the agencies consult and coordinate Great Lakes work? I 
would love to be able to say, because this was put together, 
the money that we are allocating--which as you know, I don't 
think is enough to get the job done--giving us the best return 
and are we getting a better return on our dollar because 
somebody's looking at these agencies and coordinating them? Or 
are they just continuing to do their own thing?
    Mr. Johnson. They are not continuing to do their own thing 
and the simple answer is, yes, we are, both for me personally 
as the Chair of the Inter-Agency Task Force, Ben Grumbles, of 
course, our Great Lakes National Program Office. That is one of 
the key responsibilities to help ensure that we are 
coordinating in that.
    I am pleased that the President's 2009 budget is requesting 
$57.3 million for the Great Lakes for EPA. That is actually 
$1.1 million over the 2008, in addition, over the 2008 enacted 
budget. So there is a request for more money, and that is to 
help support the Great Lakes Legacy Act, as well as additional 
work by our Great Lakes National Program Office.
    So we take the coordination very seriously and are working 
toward the same thing of making sure that we across Government 
are working hand in hand. Because the last estimate where we 
went through the budget is, as a Nation, we are spending about 
$500 million among all the Federal agencies on the Great Lakes, 
and we want to make sure that we are using those moneys wisely.
    Senator Voinovich. I would like to know how much of the 
budget is going toward supporting the coordinator for the Great 
Lakes?
    Mr. Johnson. Barry?
    Senator Voinovich. Yes. How much money does he have 
allocated to him?
    Mr. Johnson. He has in fact, I know it was $22 million and 
for the Great Lakes National Program Office, as part of the 
$1.1 million, the President is asking for $600,000 more for 
that office.
    Senator Voinovich. If you could give me that, I would 
appreciate it.
    Mr. Johnson. Yes.
    Senator Voinovich. Has anybody calculated that we have been 
able to get a better return on our dollar if you got, I would 
like specific examples, or in the alternative anecdotal stuff 
that says, because we have done this, it is making a 
difference.
    Mr. Johnson. I believe it is making a difference. We 
certainly have some great results, whether it is the Black 
Lagoon or some other of our Great Lakes projects that have, in 
our lifetime, in fact in our tenure, my tenure as 
Administrator, have begun, have been cleaned up and ended. And 
I think that speaks volumes for the great work of the entire 
team.
    Senator Voinovich. Thank you.
    Senator Boxer. Thank you very much, Senator.
    Senator Cardin.
    Senator Cardin. Thank you, Madam Chair.
    Mr. Johnson, thank you for being here. I just wanted to 
make a couple comments on issues that have been covered. I 
strongly support the Chairman's position in regard to the 
California waiver. Obviously it affects my State of Maryland 
that would also seek a waiver based upon the California 
request, and it affects about half the population of this 
Country.
    I quite frankly don't understand why there is a resistance 
here. It seems to me, yes, it is your decision, but it should 
be based upon good information. I do think Congress has a 
responsibility to oversee how that decision was made. I would 
hope we could find a way that is consistent with your 
responsibilities as the Administrator and our responsibilities 
as the legislative branch of Government.
    On a second point, on the Clean Water State Revolving Fund, 
as I travel through Maryland, one theme I hear more and more 
from my local government officials is how long it is taking 
them to get the type of help they need to modernize their waste 
treatment facilities. Each year, your budget comes in at a 
lower number on this fund. I look at the money that is in there 
and look at the needs just in the Chesapeake region. We could 
use every dollar of the entire national fund in the Chesapeake 
region to upgrade our wastewater treatment facility plants, 
which is the, I guess the most recognized way in which we can 
help the Chesapeake Bay. There is total agreement that 
upgrading our wastewater treatment facilities will have a major 
impact on improving the quality of the water in the Chesapeake 
Bay.
    So if the budget request you submitted was just for the 
Chesapeake Bay region, I would say good work. But as I 
understand it, it is for the whole Country. So again, I don't 
understand the priority that you are placing either on air and 
water, when your budgets don't reflect that.
    So let me just go to a couple specific programs in the time 
that I have. Let me talk about the small watershed grant 
program. I am being sincere when I thank the people at EPA for 
their help on this program. I think they are administering this 
program in the best way possible. The awardees of these grants 
are non-profit entities or local governments that leverage a 
very small amount of money to get much more education and 
actual work to clean up our watersheds, our rivers, which are 
very important to the overall strategy dealing with the cleanup 
of the Chesapeake Bay.
    I appreciate when they are there for our public events, 
front and center, with pride as to the work we are doing on 
these small watershed grant programs. My question to you, it 
would be nice if there was at least one budget year where you 
don't zero out that program. I just don't understand how you 
can have the pride with what that program is doing, but then on 
the other hand come in with budgets that zero it out. It seems 
to me an inconsistent message and particularly for the people 
to work in this area. If you can help me on that, fine. And I 
will give you a chance to respond.
    Let me ask you a specific question on the underground 
storage tank program. Do we know how many leaking underground 
storage tanks there are in America?
    Mr. Johnson. I believe we do, I don't know the number off 
the top of my head.
    Senator Cardin. It looks like you are getting help from a 
staffer.
    Mr. Johnson. Yes, I am looking to Susan Bodine, our 
Assistant Administrator.
    Senator Cardin. She looks ready to answer that question.
    Ms. Bodine. I do have that number, but I am not finding it. 
So I would like to get back to you for the record on that. But 
we do have, in fact, how many reported releases we have and how 
the release, both the new releases are going down and the 
number of unaddressed releases are going down. So the data is 
trending well in that area.
    Senator Cardin. I am being given a note, I don't know how 
accurate this is, it says 108,000. Would that seem like it is 
an approximate number, backlog?
    Ms. Bodine. I would have to get back to you for the record.
    Senator Cardin. Could you tell us how long it would take, 
at $72 million a year, which I believe is what is in the 
budget, to remedy the backlog and deal with the number of 
underground storage tanks that are leaking?
    Ms. Bodine. You have to understand that the funding in the 
budget primarily funds the State programs, as in the people. 
The vast majority of funding that is expended each year, and it 
is over $1 billion, it is coming out of State funds that are 
set up to do cleanup of underground storage tanks. Those State 
funds are funded both by fees on the tank operators as well as 
on State gas taxes.
    Senator Cardin. How much money is in the Federal 
underground tank trust fund?
    Ms. Bodine. The balance in the trust fund currently is, I 
have it, I am just not seeing it. As of September 30th, 2007, 
the fund balance was $2.941 billion.
    Senator Cardin. Two point nine billion, and the budget, 
that fund is supposed to be used for underground tanks cleanup?
    Ms. Bodine. The funding is for the program, for the leaking 
underground storage tank program.
    Senator Cardin. And appropriated is $72 million?
    Ms. Bodine. Out of that trust fund, yes.
    Senator Cardin. And the needs are pretty great, and the 
history of the trust fund balance doesn't dictate the amount of 
appropriated funds and the history. I understand that. But it 
seems to me that when we oppose fees to be used for a certain 
purpose and there is a tremendous need out there to deal with 
it, and so little money is appropriated, it is an appropriate 
question for us to be asking.
    And as you are asking yourself that question, I would 
certainly ask you to look at the question which we have also 
posed, and that is that we recognize the need for inspections. 
Certainly directed as part of the Energy Policy Act of 2005. We 
believe, and certainly talking with a number of our State 
counterparts, that there is an alternative way to achieve that 
inspection, and we think there is a more cost-effective way. 
Certainly we would ask that an alternative approach be 
considered as well. We just want to get the most bang for the 
buck.
    Senator Cardin. I agree with that, I agree with that 
completely. But if the information given to me is correct and 
the backlog is $108,000, then we have work to be done, we have 
funds that are in a trust fund, we don't have the support to 
appropriate the resources to deal with the backlog. That is 
what it seems like it adds up to me.
    Let me move to my final point, which deals with stormwater, 
which is a major problem in water quality in the Chesapeake Bay 
and throughout our Country. As I understand it, you are funding 
an effort by the National Research Council to give it expert 
scientific advice on this issue. That report is due in October. 
I also understand that you are engaged in expedited rulemaking 
that could very well compromise environmental impacts of runoff 
that could be contrary to the scientific information that will 
be made available to you in October. It doesn't seem like this 
is the right process to be following if you are funding a 
study, going forward with a rule that could be damaging on the 
effectiveness of runoff.
    Mr. Johnson. I have asked Ben to come up and talk about the 
specifics of the reg. But I want to note that we have launched 
a number of activities, because of the opportunity for green 
infrastructure, whether it is green roofs or porous pavement or 
other types of technologies, working in a collaborative, 
cooperative way with both local communities as well as 
environmental public interest communities and industry to see 
what we can do to get those green infrastructures more widely 
adopted. Because it has tremendous opportunities, whether it is 
energy or the environment, particularly in the runoff arena.
    Senator Cardin. I agree with you. We have had bipartisan 
support in Congress on that, and I am pleased for Government to 
be a leader on dealing with the runoff issues, not only during 
construction, but past construction, make sure that our 
buildings are sensitive to the runoff issues. We are using, a 
lot of the land that used to filter our water is now cement. 
What we can do as far as a green strategy on this should 
incorporate runoff. Our bill here did that, with the support 
from both sides of the aisle.
    Now we are concerned that as you are going forward with 
this rulemaking, you might very well be reversing some of the 
progress we are making, and waiting for the best scientific 
information we have on the impact of runoff on such issue as 
the quality of the water in the Chesapeake Bay.
    Mr. Grumbles. Senator, I want to thank you for your 
leadership in terms of Federal agencies and facilities in the 
recently enacted Energy Act about site design and low impact 
development. We are doing three or four different types of 
activity on stormwater, while we are also eager to get the 
update from the National Academy of Sciences. One of them is to 
re-issue the construction general permit. The other one is to 
work with localities and States across the Country on their 
MS4, municipal separate storm sewer system programs. We need to 
continue to do that, because we recognize stormwater is one of 
the greater challenges, and the goal is to make it all 
consistent with the Administrator's vision on the green 
infrastructure.
    But the third one, which you are really focusing on, is the 
need to promulgate an effluent guideline under the Clean Water 
Act for construction and development, we are in litigation over 
that. The issue is the schedule. What we have been focused on 
is trying to get the rule finalized, re-proposed and finalized, 
because we think it can add to, not detract from, but add to 
the progress by providing information for permit writers across 
the Country, including in the Chesapeake Bay, to have the 
latest scientific information on the best management practices 
for stormwater.
    Senator Cardin. It is our concern, if it is inconsistent 
with the scientific information that comes out in October.
    Mr. Grumbles. The key is going to be an adaptive management 
program, and that is for the permits as well as for the 
effluent guidelines, is to be able to incorporate that 
information as we get it.
    Senator Boxer. Senator, I am very pleased that you asked 
this line of questioning. Before you came, a lot of us 
mentioned this program. We know that the biggest threat to 
drinking water are these underground tanks. We are looking at a 
huge backlog here.
    By the way, I keep thinking about what we are spending in 
Iraq, $10 billion a month. For $12 billion, we could cleanup 
the whole backlog. They are putting $70 million into a program, 
that is what they are putting into a program. So I wanted to 
thank you.
    Before I call on Senator Whitehouse, just briefly I want to 
place in the record the documents we have gotten from EPA that 
we requested, along with a CRS opinion, CRS 46. It is well 
established by congressional practice that acceptance of a 
claim of privilege before a committee rests in the sound 
discretion of that committee. And the committee can deny the 
claim, simply because it believes it needs the information 
sought to be protected in order to accomplish its legislative 
functions.
    So we are going to put all that into the record.
    [The referenced material fwas not received at time of 
print.]
    Senator Boxer. Again, keep that in mind, because we want 
the rest of the documents.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Madam Chair. Welcome, 
Administrator Johnson.
    Was there or was there not White House contact regarding 
the California waiver decision?
    Mr. Johnson. As I testified previously, I have routine 
conversations with a lot of colleagues across the 
Administration, including the White House.
    Senator Whitehouse. Was there or was there not contact from 
the White House regarding the waiver decision?
    Mr. Johnson. As I said, I have routine contacts with 
members of the Administration, including the White House.
    Senator Whitehouse. And did that routine contact include 
contact regarding the waiver decision?
    Mr. Johnson. Again, I have routine conversation on a wide 
range of topics that I believe is good government and indeed, 
it included what our status was on the issue of the California 
waiver.
    Senator Whitehouse. Did it go beyond you reporting on the 
time status of the waiver decision? Was there in fact White 
House input into that waive decision through this routine 
conversation?
    Mr. Johnson. Again, as I have stated and will State again, 
the decision was mine, solely mine. I heard a wide range of 
comments from inside the agency, outside the agency, I was 
presented with a range of options. I made the decision. It was 
my decision and my decision alone.
    Senator Whitehouse. I wasn't asking whose decision it was. 
I was asking whether the White House had input into that 
decision. I seem to be having trouble with that question, I 
don't know why. It's a very straightforward question.
    Mr. Johnson. Again, I have a lot of conversations with a 
lot of people, again, across the Administration. I think that 
is good government.
    Senator Whitehouse. We are talking about the waiver here.
    Mr. Johnson. I believe, I like to preserve those 
conversations, I like to have candid input as I make my 
decisions. But as I said here, this is a decision that was mine 
and mine alone. I made the decision, I know that a number of 
Members of Congress disagree with that decision and I 
understand that. But it was mine and mine alone and you will 
see the rationale for my decision on Friday, on or before 
Friday, I should say.
    Senator Whitehouse. Why won't you answer whether or not 
there was White House input into that decision?
    Mr. Johnson. I did answer the question.
    Senator Whitehouse. No, you didn't.
    Mr. Johnson. You don't like the answer.
    Senator Whitehouse. No, you didn't answer the question. It 
is not a question of not liking it. You answered very different 
questions. You spoke after my question, but you didn't answer 
my question. Nobody in this room could tell us based on what 
you said whether or not there was White House input into the 
waiver decision.
    Mr. Johnson. As I said, I have routine conversations with 
the White House on a variety of subject.
    Senator Whitehouse. I understand, routine conversations. 
But did those routine conversations involve input into the 
waiver decision?
    Mr. Johnson. The exchange of information, I prefer to keep, 
because it was candid conversations and candid input to me. As 
I said----
    Senator Whitehouse. I am not asking for the content of it 
at this point. I am simply asking if there was it. Can I infer 
from the fact that you are protecting content that there was in 
fact input and content to you from the White House about the 
waiver decision?
    Mr. Johnson. I wouldn't infer anything, other than I have 
stated and will State that I have had routine conversations 
with the White House and other members of the Administration on 
a wide range of issues, including the California waiver. The 
decision was mine and mine alone. I made the decision. It is 
the right decision. I know you disagree with it, but it is the 
right decision.
    Senator Whitehouse. Well, we can explore all that later, 
and I am sure we will, over time. But the immediate question I 
am trying to get at, as you know, has been the integrity of the 
decisionmaking process that you went through. There are formal 
means for input into that decisionmaking process. It concerns 
me that you can't tell me that there were not improper informal 
means of communication from the White House into that process.
    Mr. Johnson. I have not violated any laws or regulations in 
the decisionmaking process. And as I said, my decision, my 
decision alone, I made the decision and you will see it on or 
before Friday.
    Senator Whitehouse. But you won't disclose whether or not 
the White House influenced your decision or communicated with 
you regarding the substance of your decision? You cannot say no 
to that?
    Mr. Johnson. As I said, I have routine conversations----
    Senator Whitehouse. We heard that, I know, I know. You 
already said that. You don't have to say it again. I am trying 
to get at things you haven't said, which is, whether or not the 
White House contacted you regarding the substance of this 
decision, up or down, just whether or not that did. It's a yes 
or no question. And you have said, yes, there have been routine 
contacts.
    Mr. Johnson. I have routine conversations----
    Senator Whitehouse. Yes, yes, we got all that.
    Mr. Johnson [continuing].--on all kinds of issues, 
including the California waiver.
    Senator Whitehouse. So you did discuss the California 
waiver with the White House?
    Mr. Johnson. I already said it, I will say it again, I have 
routine conversations with the White House on a wide range of 
subjects. It included the California waiver. The decision on 
the California waiver was mine and mine alone. I made the 
decision.
    Senator Whitehouse. What was the nature of the discussion 
regarding the California waiver?
    Mr. Johnson. As I have said, I regard conversations with my 
staff, with members within the Administration, of candid 
conversations and I value the ability to have those candid 
conversations and ultimately, the decision is mine. I made the 
decision and----
    Senator Whitehouse. If there is an agency process for 
gathering information that is a public process is there----
    Mr. Johnson. As I said, I did not violate any laws, nor did 
I violate any regulations. We have already discussed the roll-
out, which I have already described as being unique. But other 
than that----
    Senator Whitehouse. You understand the predicament that it 
leaves us in when you make a conclusory statement like, I 
haven't violated any laws or regulations, but won't share with 
us the facts that would allow us to draw an independent 
conclusion about that.
    Mr. Johnson. As I said, we have been sharing the documents. 
It has been historic and it has been a priority. We have been 
as transparent as possible. I have also commented to Chairman 
Boxer that we are consulting with various parts of the 
executive branch about documents that involve their interests 
and said we will be providing an update on that.
    Senator Whitehouse. The last time we spoke about this, you 
said that sometimes the EPA staff gave you a single 
consolidated recommendation, Mr. Administrator, this is what we 
think you should do, and sometimes they gave you an array of 
options, Mr. Administrator, we think these are your options. 
You have testified that in this case, they gave you an array of 
options, not a single, consolidated opinion, correct?
    Mr. Johnson. That is what I remember, yes.
    Senator Whitehouse. Who made the decision to give you not a 
single consolidated decision, but a range of options? Was that 
your call? Was that what you asked for? Or was that somebody 
else's call, and if so, who?
    Mr. Johnson. Typically I look for what is the range of 
legal options and what are the pros and cons of each of those, 
so that I can make the best informed decision. And in this 
case, and I don't recall whether it was the then-acting head of 
our Air Office or who, but certainly I was presented with a 
range of options.
    Senator Whitehouse. Did you discuss with anyone or request 
from anyone that you be presented with a range of options 
rather than a single, consolidated agency recommendation?
    Mr. Johnson. I don't recall specific to the California 
waiver. Generally, I like to see what is the full range of 
options that are legally defensible and what the science and 
policy issues are associated with that, so that I can make the 
best informed decision.
    Senator Whitehouse. Did anyone at the agency, well, let me 
ask you first, when and where was this options analysis 
presented to you? Was it in a meeting in your office?
    Mr. Johnson. What I recall was that there were formal 
briefings. I don't recall the specific dates of those, but they 
were obviously before I made the final decision.
    Senator Whitehouse. But presumably before you made the 
final decision there was sort of a final meeting where the 
staff said, here are your options sir, and was that meeting 
spread out over time?
    Mr. Johnson. I recall having a series of meetings that, 
one, which I think, as I recall, began with an informational 
briefing on the nature of the California waiver and past 
practices. Then briefings following that on, here is the 
analysis of the public comments and here is the analysis of our 
assessment and here are the options. So it was a series of 
meetings.
    Senator Whitehouse. But the point where the options were 
presented to you, was that in a meeting or was that in writing?
    Mr. Johnson. As I recall, it was both, in writing and in a 
meeting.
    Senator Whitehouse. Did anyone advise you that the 
administrative record that had been developed to date would 
support a decision to deny the waiver?
    Mr. Johnson. I don't recall the specifics of administrative 
record. What I do recall is that again, there was a wide range 
of options, ranging from granting the waiver to denying the 
waiver. Obviously you know what the decision that I intend to 
formalize on or before Friday.
    Senator Whitehouse. But at the moment, you do not recall 
anyone advising you that the administrative record would 
support a decision to deny the waiver?
    Mr. Johnson. Again, I don't recall that specific question 
at this point.
    Senator Whitehouse. Did anyone advise you that denial of 
the waiver would withstand arbitrary and capricious standard 
review?
    Mr. Johnson. I had, again, a wide range of opinions and 
options. The options that were presented to me, including 
denial of the waiver, was a legal, viable option.
    Senator Boxer. Senator, I want to give you another 5 
minutes, if you would like that.
    Senator Whitehouse. OK. By what means did the staff 
communicate to you that denial of the waiver would be, I forget 
the words you just used, legally viable option, or was it legal 
and viable option? I didn't hear you very clearly.
    Mr. Johnson. Again, all the options that were presented to 
me were presented as options, legally viable options for me to 
consider. Obviously with anything that we do in the agency, 
there is litigation risk. Again, I have to make my decision 
based upon what the law directs me to do and that is what I 
said that I have done.
    Senator Whitehouse. In the course of that, were there 
analyses given to you over which choices would be more likely 
to withstand arbitrary and capricious standard review or would 
be more likely to be viewed on review as being supported by the 
administrative record?
    Mr. Johnson. As I recall, I was presented with a range of 
options which included both science and policy and litigation 
risk.
    Senator Whitehouse. And did the agency rank or otherwise 
evaluate among that range of options which would be most likely 
to withstand review, either as supported by the administrative 
record or as not arbitrary and capricious under administrative 
law?
    Mr. Johnson. I recall that there were opinions on that 
range. But again, the ultimate decision still rests with me as 
to in face of whatever the science presented, whatever the 
litigation risk, whatever the policy implications, I had to 
follow what the law said under Section 209 and that is what I 
did. I made the decision and I was presented with a wide range 
of options and I certainly appreciate the hard work that our 
staff put into it.
    Senator Whitehouse. What would you list? You said a wide 
range of options? Can you specify what those options were?
    Mr. Johnson. As I have said, a range from approving the 
waiver to denying the waiver.
    Senator Whitehouse. That is not a range, that is two.
    Mr. Johnson. Well, there were other options in between 
and----
    Senator Whitehouse. Such as?
    Mr. Johnson. I was trying to recall. I don't recall the 
specific options in between but that certainly is a matter of 
record.
    Senator Whitehouse. Do you recall any of the specific 
options in between?
    Mr. Johnson. As I said, the options ranged from approval to 
denial and included other options in between. I don't recall 
how they were entitled or the specifics.
    Senator Whitehouse. Without their title, their fundamental 
nature, do you recall?
    Mr. Johnson. Again, there was a range of options and I 
don't recall the specifics of the intermediate ones.
    Senator Whitehouse. Should it be of any concern to those of 
us who exercise oversight over your agency that on a matter of 
this significance that affects more than half of the population 
of the Country, so recently decided, you can't remember one of 
the options that you were presented, other than approve or 
deny?
    Mr. Johnson. Well, when I make the decisions and then I 
move on, I have before me now whether to change the NAAQS 
standard for lead, whether to change the NAAQS standard for 
ozone. I am in the midst of defending the budget before Members 
of Congress. I have a few things on my plate. Once I make a 
decision, I move on.
    So it wouldn't be unusual in my mind that once you have 
made the decision and move on that you may not remember the 
specifics. But as I have said, it is a matter of record. I have 
made the decision.
    Senator Whitehouse. We shouldn't take it as a signal that 
you never took a serious look at those options in the first 
place?
    Mr. Johnson. Not at all.
    Senator Whitehouse. They never sunk in?
    Mr. Johnson. Not at all.
    Senator Whitehouse. It is a--how long ago did you make 
this, when did this take place?
    Mr. Johnson. December.
    Senator Whitehouse. December. And it is now February 25th. 
And a meeting that you knew was going to end in significant 
litigation with the State of California, the Governor of 
California, Arnold Schwarzenegger, no less, up against you, 
and----
    Mr. Johnson. I respect all----
    Senator Whitehouse [continuing].--you don't recall what 
your options are?
    Mr. Johnson. I respect all Governors and Members of 
Congress. As I said, I carefully considered all the options 
that were presented to me. It is a matter of record. I have 
made the decision. I made the decision and you will see my 
rationale on or before Friday.
    Senator Whitehouse. Do you recall where the decision to 
deny the waiver fell in the range of potions that you looked at 
vis-a-vis its likelihood of withstanding arbitrary and 
capricious scrutiny or being viewed as supported by the 
administrative record? Among the range, was it the top, was it 
the bottom, was it somewhere in the middle? Do you recall?
    Mr. Johnson. Again, we are in litigation on that issue of 
the California waiver. So whether it is in this part or that 
part of the range, it is a legally defensible option and it was 
an option that I chose after carefully considering the 
comments, the record, what the law directs me to do and I made 
the decision.
    Senator Whitehouse. I think my time is expired.
    Senator Boxer. Senator Whitehouse, before you leave, I 
wanted to followup on a couple of things you said, and I thank 
you very much. I thought for the first 4 minutes it sounded 
like Mr. Johnson was taking the equivalent of the Fifth 
Amendment. Every question was, oh, I had a full range, I had a 
full range. I don't know what you are hiding, but it certainly 
is difficult for us when we hear that you are going to turn 
over all the documents and now all of a sudden you are in 
discussion with the executive branch about it, back-pedaling 
from what you told me.
    And then you say, it is historic, the number of documents 
that are turned over. That is not historic, it is the law. I 
read you the law. You have no choice, sir. You have to turn 
these over, because we need to do our job and that is our role, 
and your attorneys told you that. That is why we got the 
documents.
    What is historic is the way you are giving them to us, 
staring over our shoulder and wasting taxpayer dollars and 
trying to hide this. They are not going to be hidden. 
Everything I get the public is going to see. Because you don't 
have a privilege here. There is no national security.
    But I want to go to Senator Whitehouse's point about who 
you talked with at the White House specifically. Let's put up, 
this is what we got from your people. We know that on May 1st, 
2007, you were briefed by your staff from 11 to 11:45 on the 
California waiver. Then you departed for the White House at 
2:15 and you were there for an hour. You attended the 
principals meeting. Who are the principals?
    Mr. Johnson. One is, I have a lot of meetings, as I have 
said, and a lot of discussions with members of the 
Administration, including the White House.
    Senator Boxer. Well, who were the principals at the 
meeting? How many people were at that meeting?
    Mr. Johnson. I don't recall that meeting.
    Senator Boxer. Do you have any staff here who could fill us 
in, since your memory is bleak?
    Mr. Johnson. I doubt that any of them would know, either, 
but again----
    Senator Boxer. Would the Vice President be a principal?
    Mr. Johnson. I have a lot of meetings over at the White 
House.
    Senator Boxer. I am not asking you about a lot of meetings, 
I am asking you about this meeting. It is a big deal. You start 
off at 11 o'clock, and you don't finish with this work until 
3:30. And it is about the California waiver. Who do you think 
it could mean, the principals? Give me a sense of it. Who could 
it be? Because this is your staff's description, principals. 
Was the Vice President there? Was the President there or his 
chief of staff? Who was there?
    Mr. Johnson. As I said, I don't recall. I don't even recall 
the subject of it, so I don't----
    Senator Boxer. Well, the subject of it says very clearly.
    Mr. Johnson. It does?
    Senator Boxer. It says briefing on California vehicles, 
California waiver.
    Mr. Johnson. The subject of the principals meeting is that?
    Senator Boxer. That is our understanding, yes.
    Mr. Johnson. I don't know what, I have no idea what the 
subject was or recall who the principals were.
    Senator Boxer. Well, we will get further records on that. 
Do you have something on that now? That is what we were told by 
your staff, that this was all about--we asked them the question 
and we were told that is what it was. Did you have any meetings 
at the White House about the waiver?
    Mr. Johnson. As I said, I have had routine discussions 
and----
    Senator Boxer. No, no, specific meetings about the waiver.
    Mr. Johnson. As I said, I have routine discussions with 
members of the White House----
    Senator Boxer. Did those routine discussions occur at the 
White House sometimes?
    Mr. Johnson. Sometimes yes.
    Senator Boxer. Did you have any specific meetings about the 
waiver at the White House?
    Mr. Johnson. Again, I don't recall----
    Senator Boxer. Or at the Old Executive Office Building or 
with the Vice President?
    Mr. Johnson. As I said, I have routine conversations with 
members of the Administration. I think that is good government.
    Senator Boxer. Yes, I am asking you, since you think it is 
good government, tell us, since it is great government, who did 
you meet with? It is not good government if you can't remember 
a thing that happened at the meeting?
    Mr. Johnson. Senator, that was May 1st of 2007.
    Senator Boxer. About the waiver.
    Mr. Johnson. I would ask you the same question, do you 
remember what you were doing on Tuesday, May 1st of 2007?
    Senator Boxer. If I saw my calendar, yes, I would. And I 
would also have notes about it. Don't you have notes about this 
meeting that you went to?
    Mr. Johnson. I don't recall.
    Senator Boxer. Does your staff keep notes about the 
meetings that you went to?
    Mr. Johnson. Again, I don't recall if----
    Senator Boxer. Is there any record of what you talked about 
at this particular meeting?
    Mr. Johnson. I don't recall, no.
    Senator Boxer. You don't recall the meeting. Do you not 
have a routine where somebody takes notes about meetings that 
you attend at the White House?
    Mr. Johnson. Sometimes there are or are not. Again, I 
don't, as I said, at this point in time, I don't even recall 
that particular meeting.
    Senator Boxer. OK. Will you go back, and we will certainly 
talk to your staff about it, we would like to find out who was 
at that principals meeting. I mean, that is a definition by 
your staff, principals at the White House. Who would that be? 
Let's say it had nothing to do with the waiver. Let's say it 
was a discussion about something else. Who does your staff 
mean? Who in your staff wrote principals meeting? Who keeps 
your record? Who keeps your schedule?
    Mr. Johnson. I don't know on that particular meeting.
    Senator Boxer. You don't know who keeps the schedule?
    Mr. Johnson. No, not on that particular date, I don't.
    Senator Boxer. There was white tape over those meetings, by 
the way. We had to pull the tape off to find out about these 
meetings. You don't know who keeps your schedule?
    Mr. Johnson. No, I have a number of people who keep my 
schedule, and obviously people do come and go when there are 
additional opportunities.
    Senator Boxer. People?
    Mr. Johnson. Yes.
    Senator Boxer. OK. You have a big turnover of staff in your 
personal office?
    Mr. Johnson. Actually, we don't. We have a very stable 
staff at EPA. People really enjoy working at EPA.
    Senator Boxer. All right. Let me explain something. We 
asked to get information that dealt specifically with the 
waiver. This is what came over. Your staff provided this. We 
didn't ask for other things. We didn't ask about meetings about 
Superfund or anything else. So I am asking you one more time, 
when someone in your staff, and I trust that you will go back 
and find out who it is, if you would, keeps your schedule and 
writes your notes, when they write down principals meeting, 
what do you think they meant? Who would a principal be at the 
White House?
    Mr. Johnson. Again, I don't know the specifics of that. I 
can ask Roger Martel.
    Senator Boxer. Roger, what do you do there?
    Mr. Martel. Senator, if I could----
    Senator Boxer. What do you do?
    Mr. Martel. I am sorry, Senator. I am the General Counsel.
    Senator Boxer. OK, well, I was asking for the person who 
does the schedule.
    Mr. Martel. If I can maybe help clarify perhaps to some of 
the confusion here. It is my understanding the reason we 
provided you a copy of that document was because it identifies 
the Administrator. At 11 in the morning, the Administrator was 
briefed by his staff on the California waiver. I think it was a 
preliminary briefing, that is my recollection.
    Later that day he had a meeting at the White House. I think 
there were other items on his calendar as well. These items 
were redacted as non-responsive, because we did not have 
information his White House meetings were related to the 
California waiver. Therefore, they were not relevant to your 
request. That is the reason they were covered up as non-
responsive information.
    Senator Boxer. OK. Were there meetings at the White House 
about the waiver?
    Mr. Martel. Senator, you will have to ask the 
Administrator.
    Senator Boxer. I am asking you. You came up and wanted to 
talk about it. Let's go.
    Mr. Martel. I can rely on what the Administrator says, 
which he engages in conversations----
    Senator Boxer. Well, you came up and told us that this 
wasn't about the waiver. What meetings were held that were 
about the waiver? You can't have it all ways. You can't come up 
to the microphone and tell me you can clarify that this meeting 
was not about the waiver, and then when I ask you what meetings 
were about the waiver, you don't have an answer.
    Mr. Martel. Senator, I am trying to clarify your point on a 
piece of paper----
    Senator Boxer. That doesn't clarify a thing.
    Mr. Johnson, you were told by your staff pretty 
unequivocally that they would almost certainly be a lawsuit by 
California if you denied the waiver. Do you agree with that?
    Mr. Johnson. Senator, what I do agree with, every decision 
that I make and that the agency makes tends to draw lawsuits. 
So it is not a question of whether there will be a lawsuit, it 
is what is the risk in that litigation.
    Senator Boxer. Didn't your staff tell you EPA is likely to 
lose that lawsuit?
    Mr. Johnson. Again, there is a range of opinions as to 
litigation risk and success.
    Senator Boxer. Well, we have all the papers you sent us. 
There was only one here, only one conclusion, that is all we 
saw, almost certainly a lawsuit by California, EPA likely to 
lose the lawsuit. Another document, it is obvious to me that 
there is on legal or technical justification for denying this, 
the law is very specific.
    So what you say doesn't match with what we received here. 
And that is a big problem for us. So I would just say this. 
Please don't believe you are doing something historic by 
handing over these documents. Please. I hope your General 
Counsel will direct you to the appropriate language that the 
CRS gives us. This is your responsibility. By making it 
difficult for us to read these documents and standing over our 
shoulder, that is what is historic. That is what is shocking.
    And I hope that you will again, because we always have 
hope, and we have a couple of days maybe before you make this 
decision, rethink this decision. Because everyone except the 
automobile makers, that is what we know from the documents, 
everyone on your staff, legal, scientific, technical, all told 
you to grant it. We have two groups, well, one group and one 
individual. The individual was Bill Wehrum, before he left. He 
is a political appointee. We refused to nominate him for, what 
was it again? Assistant Administrator for Air. That was how bad 
his record was. He told you to deny it. But he said you should 
talk to your other compatriots. I think that was his--his 
brethren, he said, talk to your other brethren.
    That political advice was one, and the other was the 
automobile makers. Otherwise, it was 100 percent the other way. 
We hope you will think about it, you will think about 
taxpayers, you will think about half the people in this Country 
who need clean air and we thank you for coming today. I know it 
is not pleasant for you, it certainly isn't pleasant for me.
    Thank you, and we stand adjourned.
    [Whereupon, at 1:10 p.m., the committee was adjourned.]

      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland

    Thank you for holding this hearing today.
    The President's budget request fiscal year cuts EPA's 
budget by $330 million, including a cut of $134 million in the 
Clean Water State Revolving Loan Fund alone. The President's 
budget of $7.14 billion represents a cut of more than $1.2 
billion since Fiscal Year 2004. And that figure does not 
include any adjustments for inflation.
    Administrator Johnson's testimony seems to be drawn from a 
different budget than the one the President submitted.
    The Administrator asserts that this budget, which has been 
cut by 15 percent in the last 5 years, meets the environmental 
needs of this Nation.
    In Maryland, more than 90 percent of our population lives 
in areas that are in non-attainment for ozone pollution or soot 
pollution. Our air quality is not healthy, especially for our 
most vulnerable citizens, the sick, the elderly and the very 
young. Yet this budget seeks to cut $31 million from State and 
local air quality grants. This budget also cuts almost $10 
million from the diesel emissions reduction program.
    Our waters are not healthy either.
    According to the most recent report from the EPA's own 
Chesapeake Bay Program Office, only 30 percent of the 
Chesapeake Bay meets water quality standards in 2006.
    Across the watershed more than 400 wastewater treatment 
plants need to be upgraded to remove the excess nitrogen and 
phosphorus pollution that is harming our Bay. We estimate these 
facilities, including 70 in Maryland, will need $4.5 billion 
dollars for these upgrades alone. Yet this budget that the 
Administrator is touting cuts the Clean Water SRF to $555 
million. $555 million dollars will not meet the needs for 
wastewater nutrient removal in the Chesapeake, never mind the 
entire country.
    Madame Chairman, our lands are not healthy either.
    The Superfund program, which is in line for a very modest 
increase in funding, is falling far behind in the rate of 
cleanups it completes annually. The annual pace of cleanups has 
declined from roughly 80 per year to 40.
    Human exposure to potentially dangerous chemicals and 
others substances is not yet under control at 111 Superfund 
sites in 33 states. Maryland has 2 such sites: Ordnance 
Products (Cecil County) and Aberdeen Proving Ground--Edgewood 
(Harford County).
    Leaking underground petroleum tanks are contaminating both 
our soils and our groundwater. There is a national backlog of 
more than 100,000 such sites, and the GAO estimates that it 
will take $12 billion in public funds to clean them all up. Yet 
this budget cuts the Federal program by one-third, to just $72 
million.
    And the list goes on: cuts to

     Children's health programs
     Environmental education
     Environmental justice
     And stunningly, a $3.4 million cut in funds to develop 
and implement a Greenhouse Gas Registry.

    EPA is charged with protecting human health and the 
environment.
    From the air we breathe, to the waters we use, to the lands 
we live on, this is a budget that retreats from the Agency's 
core mission.
    The people of Maryland and the people of this nation 
deserve better.
    Thank you, Madame Chairman.
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
